APPENDIX

A-1

Case: 18-2106

Document: 41-1

Filed: 07/22/2020

Page: 1

No. 18-2106
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

CURTIS PARKS,

FILED

Jul 22, 2020
DEBORAH S. HUNT, Clerk

)
)
)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
WILLIS CHAPMAN, WARDEN,
Respondent-Appellee.

(1 of 2)

ORDER

BEFORE: BATCHELDER, DONALD, and READLER, Circuit Judges.

The court received a petition for rehearing en banc. The original panel has reviewed the
petition for rehearing and concludes that the issues raised in the petition were fully considered
upon the original submission and decision of the case. The petition then was circulated to the full
court.* No judge has requested a vote on the suggestion for rehearing en banc.
Therefore, the petition is denied.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

*

Judges Griffin, White, and Larsen recused themselves from participation in this ruling.

APP_001

A-2

(2 of 28)

NOT RECOMMENDED FOR PUBLICATION
File Name: 20a0335n.06
Case No. 18-2106
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
CURTIS PARKS,

)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
WILLIS CHAPMAN, Warden,
Respondent-Appellee.

FILED
Jun 09, 2020
DEBORAH S. HUNT, Clerk

ON APPEAL FROM THE
UNITED STATES DISTRICT
COURT FOR THE EASTERN
DISTRICT OF MICHIGAN

Before: BATCHELDER, DONALD, and READLER, Circuit Judges.
ALICE M. BATCHELDER, Circuit Judge. Curtis Parks, an inmate in a Michigan
prison, appeals the district court’s denial of his 28 U.S.C. § 2254 petition for a writ of habeas
corpus. We AFFIRM.
I.
Beverly Jefferson was a 44-year-old woman who lived in an apartment with her three cats.
Early one Sunday morning in April 2001, she answered a knock at her door to find an AfricanAmerican man, Curtis Parks, asking to use her phone. She did not know Parks but let him in.
Parks punched her in the face, knocked her to the floor, and raped her. He stayed all day and raped
her several times. He broke her belongings, urinated on her bed, and threatened her continually.
He told her he had been watching her for a while. Eventually, Parks fell asleep and Jefferson
called 911.
When the responding police officer arrived, Parks was in the process of raping Jefferson
again. The officer heard Jefferson screaming, kicked in the door, and found Parks on top of her
with his pants down, raping her. Parks lunged at the officer who drew his gun and subdued and
APP_002

(3 of 28)
Case No. 18-2106, Parks v. Chapman
arrested Parks. At the emergency room, Jefferson received stitches to close the wounds to her lip,
both inside and out. A sexual-assault nurse found “very fresh” injuries to Jefferson’s vagina and
anus that were typical of forced sex and assault, not consensual intercourse.
In October 2001, the state prosecutor charged Parks with three counts of criminal sexual
conduct in the first-degree and tried him to a jury in Kent County, Michigan. It was unknown at
the time but was later established that a computer error was causing an underrepresentation of
African-Americans in the panels of prospective jurors (venires) being drawn for Kent County
trials—African-Americans made up 8.24% of the community but, due to the error, made up only
4.79% of the improperly constructed community-wide pool. For Parks’s venire, however, at least
four of the 42 (9.52%) prospective jurors were African-American,1 but the prosecutor removed
those four with peremptory challenges (the prosecutor used seven of his 12 peremptory
challenges), and the resulting jury was all Caucasian. Parks’s defense counsel, who used four
peremptory challenges of his own, did not raise any Batson2 claim; to the contrary, he told the
court that he was “satisfied” with the empaneled jury.
At trial, Jefferson testified at length and in detail, describing the violence, the repeated
rapes, and her call to 911. The responding officer testified about Jefferson’s screams, finding
Parks on top of her with his pants off, and Parks’s lunging at him. The emergency room doctor
testified about Jefferson’s lip injury, that it was new and needed stitches to close it, and that Parks
could not have been unaware of it. And the sex-assault nurse testified about the injuries to
Jefferson’s vagina and anus, that they were fresh and typical of forced sexual assault, not
consensual sex. Parks testified in his defense, asserting that Jefferson was a prostitute who

1

The record established that four excluded jurors were African-American and that the 12 empaneled jurors
were Caucasian. It is unknown whether any, or how many, of the other 26 people in the venire were African-American.
2

Batson v. Kentucky, 476 U.S. 79 (1986).

2

APP_003

(4 of 28)
Case No. 18-2106, Parks v. Chapman
propositioned him and only called the police because she thought he was not going to pay. Parks
said he was unaware of Jefferson’s bloody lip and denied being on her when the officer arrived or
that he had lunged at the officer. The jury convicted Parks on all counts.
On direct appeal, Parks raised a “fair cross section” claim based on the computer error, but
the Michigan appellate court found that he had forfeited the claim by failing to raise a timely
objection at trial, i.e., before the jury was impaneled and sworn, and had actually affirmatively
waived it by “express[ing] satisfaction with the jury’s composition.” Michigan v. Parks, No.
239728, 2003 WL 21958299, at *1 (Mich. Ct. App. Aug. 14, 2003) (per curiam). Parks also raised
a Batson claim on direct appeal, based on the prosecutor’s use of peremptory challenges to remove
the four African-Americans from the venire, and the court’s empaneling an all-Caucasian jury.
The trial transcript and record did not reflect the race of any jurors, but Parks submitted affidavits
from the four dismissed African-Americans and from another person who attested to the allCaucasian jury. The Michigan appellate court found that Parks had similarly forfeited and waived
that claim by failing to raise it at trial, but further stated that it was not “clear from the record that
the prosecutor used her peremptory challenges in a discriminatory fashion.” Id. And Parks raised
an ineffective-assistance-of-counsel (IAC) claim based on his counsel’s failure to make the Batson
challenge at trial, but the court found “no record of any wrongdoing,” and hence no IAC, because
the transcript from the jury voir dire did not “indicate that the prosecutor exercised her peremptory
challenges to remove African-Americans from the jury because of their race.” Id. The Michigan
appellate court affirmed, id. at *3, and the Michigan Supreme Court denied leave to appeal.
Michigan v. Parks, 677 N.W.2d 27 (Mich. 2004). Parks did not pursue any state post-conviction
motions; he next filed a pro se federal habeas petition.

3

APP_004

(5 of 28)
Case No. 18-2106, Parks v. Chapman
Parks’s § 2254 petition raised two claims—Batson and fair-cross-section—but recognized
that both were procedurally defaulted. He argued that trial counsel’s IAC excused the procedural
default of the Batson claim. The district court denied the IAC claim, finding no evidence of trial
counsel’s deficient performance, and held the Batson claim procedurally defaulted because Parks
could not overcome the default without proving IAC. See Parks v. Warren, No. 05-10036, 2011
WL 5838486, at *1 (E.D. Mich. Nov. 21, 2011). On the fair-cross-section claim, the court found
cause to excuse the default—namely, that the computer error was unknown at the time of Parks’s
trial—and assumed prejudice, so it appointed counsel for Parks and held an evidentiary hearing.
Id. Thereafter, the court denied the fair-cross-section claim on the merits, finding that even though
the Kent County Court had underrepresented African-Americans in its community-wide jury pool
for several months, the racial composition of Parks’s venire paralleled the proportion of AfricanAmericans in the community. Id.
On appeal here, a prior panel held that it was improper for the district court to assume
prejudice in order to excuse the procedural default and decide the fair-cross-section claim on the
merits, so it vacated the ruling on that claim and remanded for the district court to decide whether
Parks had suffered actual prejudice to excuse the procedural default. Parks v. Klee, 555 F. App’x
573 (6th Cir. 2014). The panel also vacated the ruling on the IAC claim and included it in the
remand, explaining that “the district court appears to have overlooked the existence in the record
of the voir dire transcript from Parks’[s] state court trial.” Id.
On remand, the district court recognized, again, that Parks had procedurally defaulted both
his fair-cross-section and Batson claims. Parks v. Warren, 278 F. Supp. 3d 975, 978 (E.D. Mich.
2017). On the fair-cross-section claim, the court found cause but no prejudice “because the trial
record plainly depicts a case against [Parks] so strong, and a defense so weak, that it is highly

4

APP_005

(6 of 28)
Case No. 18-2106, Parks v. Chapman
improbable that an unbiased jury could acquit him.” Id. at 981. Therefore, the district court denied
the fair-cross-section claim based on procedural default. Id. at 983.
On the Batson claim, Parks asserted that the cause for the default was trial counsel’s IAC,
citing Strickland.3 Id. at 984. But the district court rejected that contention:
[Parks] is not entitled to relief on his Batson and Strickland claims, because he has
not pointed to any circumstances evident from the record sufficient to make out a
prima facie claim that the prosecutor’s use of peremptory strikes was racially
motivated. And because the record discloses no plausible basis for raising a Batson
objection, [Parks]’s counsel cannot have been ineffective for failing to make one.
Id. at 985. Having found no basis for raising a Batson challenge, the district court concluded that
because there had been no reason for trial counsel to raise the Batson challenge, counsel had not
performed deficiently, and because counsel’s performance had not been deficient, counsel had not
rendered ineffective assistance. Parks had thus shown neither cause nor prejudice to excuse his
procedural default of the claimed Batson violation.
In sum, the district court found that Parks did not and could not point to evidence in “the
record sufficient to suggest that the [peremptory] removal of those [four African-American] jurors
was ‘motivated by race.’” Id. at 986. The court specifically listed certain shortcomings in Parks’s
proof, stating that the record revealed: (1) the race of only the four affiants and that the empaneled
jury was all Caucasian, but did not reveal the race of anyone else in the venire who was neither
affirmatively removed nor ultimately selected, so there was no proof “that the prosecutor engaged
in a ‘pattern’ of strikes against African-American jurors”; (2) no racial pretext in the prosecutor’s
voir dire questioning or commentary; and (3) that both sides used peremptory challenges, but
neither used them all, and the prosecutor used just four of her seven on African-Americans. Id. at
986–87. The district court emphasized that the absence of African-Americans, standing alone,

3

Strickland v. Washington, 466 U.S. 668 (1984).

5

APP_006

(7 of 28)
Case No. 18-2106, Parks v. Chapman
does not “support any valid inference of purposeful discrimination.” Id. at 987. The court
acknowledged that the record was silent as to the prosecutor’s reasons for removing those jurors,
“principally because [Parks]’s attorney did not object to any of the challenges, and at the end of
the selection process he stated that ‘the defense is satisfied with the jury.’” Id. at 984. The court
then denied the Batson claim after finding that, even if Parks’s counsel had raised the claim, the
voir dire transcript revealed “plausible non-racial reasons for the exercise of the challenges to the
four African-American jurors.” Id. at 983. Finally, the court denied Parks’s request for an
evidentiary hearing because his request was based on only “naked speculation,” which “does not
warrant an evidentiary hearing in a habeas proceeding.” Id. But the court did grant Parks a
certificate of appealability on both the fair-cross-section and Batson claims.
Parks moved the district court to reconsider based on the Supreme Court’s then-recent
decision in Weaver v. Massachusetts, 137 S. Ct. 1899 (2017), which—according to Parks—
abrogated the rule laid down in Ambrose v. Booker, 684 F.3d 638 (6th Cir. 2012), that required
proof of actual prejudice, and required the court to instead presume prejudice on collateral review
of any claims implicating structural error. The district court denied the motion, explaining that
Weaver does not compel that conclusion, and that the Sixth Circuit had rejected that argument in
Carter v. Lafler, No. 17-1409, 2017 WL 4535932, at *3 (6th Cir. Aug. 30, 2017) (order), and
Wellborn v. Berghuis, No. 17-2076, 2018 WL 4372196, at *2 (6th Cir. May 16, 2018) (order).
Parks v. Warren, No. 05-10036, 2018 WL 4478767, at *3 (E.D. Mich. Sept. 19, 2018).
II.
The district court held that Parks procedurally defaulted two of the claims before the court
in this appeal because he failed to raise them in the state trial court. In an appeal from a district

6

APP_007

(8 of 28)
Case No. 18-2106, Parks v. Chapman
court’s finding of procedural default, we review the district court’s legal conclusions de novo and
its findings of fact for clear error. Scott v. Houk, 760 F.3d 497, 503 (6th Cir. 2014).
In short, a § 2254 petitioner is barred from asserting claims in federal court that have been
“procedurally defaulted.” Woodford v. Ngo, 548 U.S. 81, 93 (2006). To overcome a procedural
default, the petitioner must “demonstrate cause for the default and actual prejudice as a result of
the alleged violation . . . or demonstrate that failure to consider the claims will result in a
fundamental miscarriage of justice.” Coleman v. Thompson, 501 U.S. 722, 750 (1991).
A.
The first issue is whether Parks procedurally defaulted his Batson claim. Parks argues that
his trial counsel was ineffective for failing to raise that claim at voir dire and that IAC demonstrates
cause and prejudice to overcome the default. See Wade v. Timmerman-Cooper, 785 F.3d 1059,
1077 (6th Cir. 2015) (ineffective assistance of counsel can serve as both cause and prejudice).
Our precedent does not definitively provide the standard of review that we must apply to
Parks’s argument regarding procedural default. The Michigan appellate court did address Parks’s
IAC claim on the merits. Ordinarily, then, the Antiterrorism and Effective Death Penalty Act
(AEDPA) would govern our review of that claim in this collateral posture. As a result, we could
grant relief only if the last reasoned opinion from the state court that adjudicated the challenged
issue on the merits “was contrary to, or involved an unreasonable application of, clearly established
Federal law, as determined by the Supreme Court of the United States[,] or resulted in a decision
that was based on an unreasonable determination of the facts.” 28 U.S.C. § 2254(d). But in
examining whether a petitioner has shown cause and prejudice to excuse procedural default, “we
have sometimes said that AEDPA deference does not cabin our review of the cause and prejudice
aspect of procedural default” and have instead applied de novo review. Williams v. Burt, 949 F.3d

7

APP_008

(9 of 28)
Case No. 18-2106, Parks v. Chapman
966, 974 (6th Cir. 2020) (citing Hall v. Vasbinder, 563 F.3d 222, 236-37 (6th Cir. 2009)). We
need not resolve this issue today, however, as Parks plainly cannot meet the demanding Strickland
test even on the more lenient de novo standard of review. See id.
To prove an IAC claim, the petitioner “must show that [his counsel’s] deficient
performance prejudiced [his] defense.” Strickland, 466 U.S. at 687. That is, Parks must show,
based on the evidence that was before the state court, see Cullen v. Pinholster, 563 U.S. 170, 181
(2011), that counsel’s performance was deficient and that deficiency prejudiced his defense.
The allegedly deficient performance is Parks’s trial counsel’s decision not to object to the
prosecutor’s use of peremptory challenges to remove the four African-Americans from the jury;
i.e., counsel’s decision not to raise the Batson challenge. The Michigan appellate court, the district
court, and the prosecutor reasoned this way: there is no evidence in the record that race influenced
the prosecutor’s peremptory removals; therefore the trial court would have denied a Batson
objection (i.e., the objection would have been futile); therefore trial counsel was not obligated to
object (and pursue a futile argument); therefore that decision was not necessarily or objectively
incorrect; therefore trial counsel did not perform deficiently by deciding not to object; therefore
no IAC. Parks attacks the first of that line of falling logical dominoes, insisting that “the record
amply establishes a prima facie showing of racial discrimination,” Apt. Br. at 39 (and at 34 & 37),
based solely on the prosecutor’s removal of the four identified African-Americans and on the allCaucasian jury. The parties dispute whether the case law supports or rejects this theory, but we
can sidestep that dispute here by assuming that if defense counsel had raised it to the trial judge,
the judge would have asked the prosecutor for an explanation (i.e., would have found Batson’s
step one—the prima facie case—satisfied and proceeded to step two).

8

APP_009

(10 of 28)
Case No. 18-2106, Parks v. Chapman
But we must start the analysis with Strickland rather than Batson, and the first question
therefore is whether defense counsel’s decision might have been reasonable under prevailing
professional norms. Strickland, 466 U.S. at 688. Maybe it was a strategic decision because
defense counsel did not want those four on the jury anyway, or maybe their removal would make
room for other potential jurors whom defense counsel found more favorable. We do not know and
should not speculate. But that does not mean that we should ignore or discredit defense counsel’s
affirmative statement to the trial court that he was “satisfied with this jury”; that is, defense counsel
was expressly “satisfied” with an all-Caucasian jury, for whatever reason. Even if that was a bad
decision, “errors of tactics or omission do not necessarily mean that counsel has functioned in a
constitutionally deficient manner.” Greer v. Mitchell, 264 F.3d 663, 676 (6th Cir. 2001).
Moreover, even if we assume that, in this case, counsel’s performance (i.e., decision to
forgo the Batson challenge) was outside “the wide range of reasonable professional assistance,”
Parks must still demonstrate that there is a reasonable probability that, due to that decision, the
result of the trial would have been different. Strickland, 466 U.S. at 689, 694. That is, Parks must
show that if the trial court had upheld the Batson challenge, or if the prosecutor had withdrawn the
peremptory strikes, and the four African-Americans had sat on Parks’s jury, the outcome of his
trial would have been different. See id. And he cannot. The case against Parks was so strong and
his defense was so weak, that no unbiased juror would have voted acquit him.
Because Parks cannot prove IAC on de novo review, let alone AEDPA review, he cannot
overcome his procedural default of his Batson claim and we have no authority to consider the
Batson claim in this appeal.

9

APP_010

(11 of 28)
Case No. 18-2106, Parks v. Chapman
B.
The next issue in this appeal is whether the district court erred by denying the fair-crosssection claim because it was procedurally defaulted. Parks contends that he has overcome his
procedural default of the fair-cross-section claim because he had cause for not raising it, namely,
that he was not aware of it (no one was), and he can prove prejudice “because fair-cross section
violations always render trials fundamentally unfair.” But, as explained above, the prior panel
decision held that Parks had to prove “actual prejudice,” Parks, 555 F. App’x at 573, and the
district court found that he could not do so. Before that appeal, the district court found that even
though African-Americans had for several months been underrepresented in the jury pools of the
Kent County Court, there was no prejudice to Parks because the racial composition of his venire
(at least 9.52% African-American) exceeded the proportion of African-Americans in the
community (8.24%). Parks, 2011 WL 5838486, at *3. On remand, the district court found no
prejudice “because the trial record plainly depicts a case against [Parks] so strong, and a defense
so weak, that it is highly improbable that an unbiased jury could acquit him.” Parks, 278 F. Supp.
3d at 981.
Parks moved the district court to reconsider based on the Supreme Court’s then-recent
decision in Weaver, 137 S. Ct. 1899, which Parks argued had abrogated the rule laid down in
Ambrose, 684 F.3d at 650-51 (requiring proof of actual prejudice “regardless of the nature of the
underlying constitutional claim”), and instead—Parks contends—requires that the court presume
prejudice on collateral review of any claims implicating “structural error.” See Parks, 2018 WL
4478767, at *3. That is the argument he now presses in this appeal.
The Weaver Court, despite limiting its holding to its particulars (i.e., a claim of IAC for
failure to raise a structural error in “the context of trial counsel’s failure to object to the closure of

10

APP_011

(12 of 28)
Case No. 18-2106, Parks v. Chapman
the courtroom during jury selection,” Weaver, 137 S. Ct. at 1907), described generally three kinds
of structural error, id. at 1908 (i.e., error as to a right that protects the defendant from some interest
other than erroneous conviction; error the effects of which are too hard to measure; error that
always results in fundamental unfairness). The Court nonetheless held that IAC on a public-trial
claim did not result in fundamental unfairness. Parks claims that a violation of the fair-crosssection right always and necessarily renders a trial fundamentally unfair, so Weaver means that he
need not prove actual prejudice.
But that is not a reasonable reading of Weaver. Weaver stands for the idea that finality and
judicial economy can trump even structural error; so, when a defendant raises a structural error on
collateral review rather than on direct review, he must prove actual prejudice, even though he
would not have had to prove actual prejudice if he had raised it on direct review. That is because,
if the error is one that results in fundamental unfairness (e.g., denial of counsel, no reasonabledoubt instruction, biased judge), actual prejudice should be easy to show and when a defendant
raises the error immediately to the trial court, the court can correct the mistake; or, when it is raised
on direct review, only minimal time will have passed, so witnesses and evidence are still available.
But when the error is raised on collateral review, it is a larger burden on the system and on the
concept of fairness. Id. at 1912. All in all, Weaver does not support Parks’s contention that he
need not prove actual prejudice solely because a fair-cross-section violation is structural error.
Because Parks has not proved and cannot prove actual prejudice, he cannot overcome his
procedural default and the panel has no authority to decide his fair-cross-section claim.
C.
The final issue in this appeal is whether Parks is entitled to an evidentiary hearing in federal
court. Parks insists that an evidentiary hearing in federal court is warranted to force the prosecutor

11

APP_012

(13 of 28)
Case No. 18-2106, Parks v. Chapman
to state specific reasons for the peremptory removals, which Parks could then attempt to construe
as sufficiently incriminating to prove the prima facie case of racial discrimination for his Batson
claim. The district court correctly rejected this as rank speculation.
Regardless, Parks defaulted his Batson claim. Even if he could provide actual evidence of
racial discrimination, because he defaulted his Batson claim, he could not obtain habeas relief on
it. Therefore, no hearing is warranted.
III.
For the foregoing reasons, we AFFIRM the judgment of the district court.

12

APP_013

(14 of 28)
Case No. 18-2106, Parks v. Chapman
BERNICE BOUIE DONALD, Circuit Judge, concurring in the judgment. I agree
with the majority that Curtis Parks is unable to show actual prejudice for either claim because of
the strength of the case against him and would affirm the judgment of the district court. I write
separately, however, to discuss the majority’s failure to address the constitutional guarantee to be
tried by an impartial jury and the court system’s inability to protect Parks. Parks was tried and
convicted by an all-white jury, Parks v. Warren, 278 F. Supp. 3d 975, 987 (E.D. Mich. 2017),
resulting from the prosecutor’s use of four of her seven peremptory challenges to remove every
African-American juror from Parks’ jury panel and the now well-documented Kent County
computer glitch.1 He raised both procedurally defaulted claims in his 28 U.S.C. § 2254 petition.
I.
To show that Parks’ trial counsel’s performance was deficient under Strickland for failure
to raise a challenge under Batson v. Kentucky, 476 U.S. 79 (1986), Parks must show that his
“counsel’s representation fell below an objective standard of reasonableness.”

Strickland,

466 U.S. at 688. We have previously acknowledged the possibility that the failure to raise a Batson
challenge constitutes deficient performance. See Mitchell v. Rees, 114 F.3d 571, 579 n.13 (6th
Cir. 1997) (stating that if the petitioner was able to demonstrate that his Batson claim had merit,

1

Many criminal defendants were affected by the glitch, which we have previously addressed in our prior

opinions:
On July 30, 2002, the Grand Rapids Press reported that a computer glitch had an impact on Kent
County’s system for selecting jury venires. The glitch was introduced accidentally by the county
when it assumed control of the jury selection computer program from a private vendor in April 2001.
The problem came to light in 2002, when a local high school teacher, Wayne Bentley, completed a
study of minority representation on Kent County juries. Bentley found that the underrepresentation
of minorities was statistically significant, and shared his findings with county officials. The county
subsequently conducted an internal study that revealed that “nearly 75 percent of the county’s
454,000 eligible residents were excluded from potential jury pools since spring 2001” and that
“[m]any blacks were excluded from . . . jury pools due to a computer glitch that selected a majority
of potential candidates from the suburbs.” The chief judge of the Kent County Circuit Court, George
Buth, stated, “There has been a mistake—a big mistake.”
Ambrose v. Booker, 684 F.3d 638, 640-41 (6th Cir. 2012) (alteration and ellipsis in original).

13

APP_014

(15 of 28)
Case No. 18-2106, Parks v. Chapman
“he might also be able to prevail on [his] related ineffective assistance claim”) (abrogated on other
grounds by Abdur’Rahman v. Bell, 226 F.3d 696, 705 (6th Cir. 2000)). The majority, however,
contends that counsel’s failure to raise a Batson challenge may be considered a “strategic decision”
because defense counsel expressed that he was “satisfied” with the jury when he neglected to
exercise his remaining peremptory challenges. Op. at 9. This defies logic! The majority would
see to it that the courthouse is effectively closed to any ineffective assistance of counsel claim
based on counsel’s failure to raise a Batson challenge because counsel’s failure could always be
described as “strategic.” Counsel that declines to raise a Batson challenge, or some other issue
regarding the sufficiency of the jury, is necessarily “satisfied” with the jury in order for the jury to
be empaneled and the trial to move forward. Not only that, this rationale can be easily applied to
any ineffective assistance of counsel claim; as long as counsel was “satisfied” with their
performance, any decisions must have been “strategic” and therefore fall short of constitutional
deficiency under Strickland.
Moreover, even in the extremely rare situation wherein counsel’s active decision not to
raise a Batson challenge could be considered strategic, counsel must still be guided by ensuring “a
fair trial, a trial whose result is reliable.” Strickland, 466 U.S. at 687. “[T]he purpose of the
effective assistance guarantee of the Sixth Amendment is not to improve the quality of the legal
representation . . . .

The purpose is simply to ensure that criminal defendants receive a

constitutionally fair trial.” Id. at 689. Therefore, because even a strategic decision to forgo
challenging the discriminatory use of a peremptory challenge nevertheless fails to provide the
defendant with a fair trial, I would hold that the failure to raise a meritorious Batson challenge is
outside the range of reasonable trial strategy.

14

APP_015

(16 of 28)
Case No. 18-2106, Parks v. Chapman
It is counsel’s duty to ensure that his client faces a jury constructed in a nondiscriminatory
manner. “Those on the venire must be ‘indifferently chosen,’ to secure the defendant’s right under
the Fourteenth Amendment to ‘protection of life and liberty against race or color prejudice.’”
Batson, 476 U.S. at 86-87 (quoting Strauder v. West Virginia, 100 U.S. 303, 309 (1879)).
By neglecting to raise a meritorious Batson challenge, counsel denies the defendant the protection
to ensure this right. Not only that, the use of Batson challenges also “enforces the mandate of
equal protection and furthers the ends of justice.” Id. at 99. The duty to uphold this fundamental
principle is as much the responsibility of a nondiscriminatory prosecution as it is a vigilant defense.
A.
Therefore, the first step in deciding Parks’ ineffective assistance of counsel claim is to
determine if a Batson challenge to the prosecutor’s use of peremptory strikes had merit. The Equal
Protection Clause guarantees “the right to be tried by a jury whose members are selected pursuant
to nondiscriminatory criteria.” Id. at 85-86. This right is violated by the purposeful, raciallydiscriminatory use of peremptory challenges to remove certain persons from the jury panel. Id. at
86. In order to challenge a party’s use of peremptories, the opposing party must follow the threestep process outlined in Batson. First, the opponent must make out a prima facie case of racial
discrimination. Purkett v. Elem, 514 U.S. 765, 767 (1995). Next, the proponent must offer a raceneutral explanation for the use of each peremptory strike in question. Id. Finally, the trial court
must decide whether there has been purposeful discrimination based on whether it finds the
proponent’s race-neutral explanations credible. Id. at 767-68.
Because Parks’ trial counsel did not raise a Batson challenge, there is no record of the
prosecutor’s explanations for the removal of the four African-American jurors. Nevertheless, to
show deficient performance, Parks need only show that he can satisfy step one of Batson—that he

15

APP_016

(17 of 28)
Case No. 18-2106, Parks v. Chapman
can establish a prima facie case of racial discrimination—because that is the only aspect of Batson
impacted by the performance of trial counsel. Step two is entirely the province of the prosecutor,
and step three is a credibility determination of the prosecutor’s reasoning by the court.
“To establish a prima facie case, the defendant must show that (1) he is a member of a
cognizable racial group; (2) the prosecution has removed a member of his race; and
(3) circumstances raise an inference that the removal was motivated by race.” United States v.
Lawrence, 735 F.3d 385, 443 (6th Cir. 2013). Parks is African-American, and there is no dispute
that the prosecutor used four peremptory strikes on African-American jurors. Therefore, the only
question remaining is whether Parks has overcome his burden in establishing that the
circumstances here raise an inference that the jurors’ removal was motivated by race.
1.
In reviewing the voir dire transcript, we can discern the following information regarding
the makeup of Parks’ jury. The prosecutor exercised seven peremptory challenges in the following
order: Gregory Scrivens, Thomas Zandbergen, Roger Elliot, Ahmed Shabazz, Kelli Adame, Aria
Moody, and Melanie Gipson2. Parks’ counsel exercised six peremptory challenges: Susan
Bowers, Philip Hack, Deborah Enos, Keith Williams, Richard Brancato, and Charles Rossman.
Although it is unclear how many peremptory challenges were allowed to each side here, Michigan
law generally allows twelve. Mich. Ct. R. 6.412(E).
During Parks’ state court appeal, he obtained affidavits from three of the stricken jurors
and an individual who observed the trial and was able to assess the composition of the selected
jury.3 Ahmed Shabazz, Aria Moody, and Melanie Gipson all stated that they are African-American

2

Gipson is misspelled as “Gibson” in the transcript.

3

The government does not dispute any of the statements within the affidavits.

16

APP_017

(18 of 28)
Case No. 18-2106, Parks v. Chapman
and were removed from the jury panel. Additionally, Melanie Gipson indicated that Gregory
Scrivens, struck among the first group of peremptories used by the prosecutor, is her cousin and is
also African-American. Finally, Reverend Steven Vanhuizen stated that he observed the trial and
that Parks had been tried before an all-white jury.
Parks argues that the prosecutor’s use of peremptory challenges to remove all of the
African-American jurors from the jury panel mirrors Batson’s reference to a “pattern” of strikes
against African-American jurors which “might give rise to an inference of discrimination.” 476
U.S. at 97. Specifically, Parks points to this Court’s language in United States v. SanginetoMiranda, 859 F.2d 1501 (6th Cir. 1988), to show why the prosecutor’s use of peremptories here
creates clear inferences of discrimination:
If, after the jury selection process has ended, the final jury sworn has a percentage
of minority members that is significantly less than the percentage in the group
originally drawn for the jury (or in the whole jury pool or in the district), then that
would be a factor pointing toward an inference of discrimination. If, on the other
hand, the percentage of minority members in the ultimate jury is the same or
greater, that would be a factor tending to negate the inference of discrimination.
If there are minority members on the jury but the prosecutor did not use all its
peremptory challenges, that would be a factor tending to refute discrimination.
However, if all the prosecutor's challenges were used, that fact would point toward
an inference of discrimination.
Id. at 1521-22. The percentage of African-Americans in the jury pool was at least 9.5% (4/42),
which, despite the computer glitch, was higher than the 8.24% in the community. But, after the
prosecutor’s removal of all the African-American jurors, Parks was left with 0% AfricanAmericans—an all-white jury. And unlike in Sangineto-Miranda, where the final jury consisted
of some minority members despite the prosecutor’s ability to remove them with unused
peremptory challenges, id., in Parks’ case the prosecutor continued to use her peremptory
challenges until every African-American juror was removed.

17

APP_018

(19 of 28)
Case No. 18-2106, Parks v. Chapman
2.
The government contends that, regardless of these inferences, the prosecutor’s nondiscriminatory reasoning for removing each African-American juror is evident from the voir dire
transcript. While Parks is correct to point out that it is impossible to know the prosecutor’s intent
without reaching step two, Batson is clear that courts “should consider all relevant circumstances”
in determining whether the opponent has met his prima facie burden. 476 U.S. at 96. In addition
to the pattern of strikes previously discussed, these circumstances include whether “the
prosecutor’s questions and statements during voir dire examination and in exercising [her]
challenges may support or refute an inference of discriminatory purpose.” Id. at 97.
The prosecutor asked a number of questions of the prospective jurors, including some
already raised by the court: (1) If anyone in their home was employed outside the home? (2) If
anyone had an occasion to assess a dispute in which one person was telling the truth and the other
was lying? (3) How many had friends or relatives who had been victims of criminal sexual
conduct? (4) If anyone was ever accused of a crime? (5) If anyone knew someone who had been
charged with a crime or falsely accused of anything? (6) Whether anyone required 100% certainty
to convict someone of a crime? (7) If anyone believed that a victim must resist to be guilty of
rape? (8) Whether anyone may be hindered in their deliberations because of their discomfort with
the topic or any other reason why they could not be fair or impartial?
i. Gregory Scrivens
Gregory Scrivens was the first African-American juror removed from the jury panel. He
was removed during the prosecutor’s first use of peremptory challenges, along with two other
jurors. The only information Scrivens provided to the court was that he was a mechanical engineer
and worked for Rapistan Systems.

18

APP_019

(20 of 28)
Case No. 18-2106, Parks v. Chapman
The government contends that Scrivens’ employment as an engineer refutes an inference
of a discriminatory purpose for his removal and cites several cases discussing the frequent removal
of engineers from the venire because of their mathematically-framed thought processes. The fact
that another juror with the same profession4 was not removed by the prosecutor, however, supports
a finding of discriminatory intent. Like Scrivens, Keith Williams5 was a member of the original
jury panel and informed the court that he was an electrical engineer. The prosecutor had two
opportunities to remove Williams and chose not to do so before he was eventually struck by Parks’
counsel. The voir dire transcript offers no material distinction between the prosecutor’s decision
to remove Scrivens and her decision not to remove Williams. This finding supports a showing of
discriminatory intent as to Scrivens’ removal.
ii. Ahmed Shabazz
Ahmed Shabazz was the second African-American juror removed by the prosecutor.
Shabazz was added to the venire after the prosecutor’s first use of peremptory challenges. Shabazz
indicated to the court that he is a case manager for Exodus Ministries Network and had worked
with several people who have been convicted of crimes involving criminal sexual conduct but
never any victims of such crimes. When the prosecutor was given a chance to question Shabazz,
she asked him whether he would be uncomfortable using himself as a juror if he were the
prosecutor. Shabazz responded that he did not think so, and the prosecutor ceased her questioning.
Shabazz was then removed by the prosecutor during her next available peremptory
challenge. The fact that someone has spent a significant amount of time around defendants, but
not victims, presents a plausible nondiscriminatory reason to remove that person from the jury.

4

Actually, two jurors in addition to Scrivens stated their professions as engineers, but one of them (Daniel
Wildey) was removed for cause before either side had a chance to execute a peremptory challenge.
5

There is no evidence indicating Williams’ race.

19

APP_020

(21 of 28)
Case No. 18-2106, Parks v. Chapman
Therefore, Shabazz’s statements do not raise an inference of discriminatory intent as to his
removal.
iii. Aria Moody
Aria Moody was the third African-American juror removed. Prior to Moody’s arrival to
the venire, the prosecutor indicated that she was satisfied with the construction of the then allwhite jury panel. But Parks’ counsel executed one of his peremptory challenges, which brought
Moody onto the jury panel. Upon being selected, Moody indicated to the court that she lives near
where the encounter occurred and may have heard about it when it first happened. The only
question that the prosecutor asked of Moody was whether she could convict on less than 100%
evidence. Upon Moody’s indicating that she could, the prosecutor executed a peremptory
challenge to remove Moody from the jury.
Given that Moody’s answer to the prosecutor’s question seems to show that she was the
type of juror that a prosecutor would want on a jury, it is curious that only after this question did
she remove Moody. Furthermore, although the circumstances of their potential knowledge were
different, the prosecutor chose not to remove another juror, Deborah Enos.6 Enos was added to
the jury after another juror was removed for cause, prior to the prosecutor’s second set of
peremptory challenges. Enos indicated that she may have seen Parks on television or elsewhere
because she recognized his name and his face. Although Enos never served on Parks’ jury because
she was later removed by Parks’ counsel, the prosecutor had the first opportunity to remove her
and declined to do so. Moody’s potential knowledge of the case would normally refute an
inference that she was removed for a discriminatory purpose, but the prosecutor’s failure to remove

6

There is no evidence indicating that Enos, previously in the jury pool with Moody, is African-American.

20

APP_021

(22 of 28)
Case No. 18-2106, Parks v. Chapman
Enos, who indicated similarly limited knowledge of the case, negates that premise and supports a
finding of discriminatory intent.
iv. Melanie Gipson
Melanie Gipson was the final African-American juror removed. Gipson was added to the
jury panel after the removal of Moody. When Gipson was questioned by the court, she explained
that she had a cousin who had been the victim of criminal sexual conduct. Following the court’s
inquiries, the prosecutor asked Gipson whether she believed a victim should have to resist and
Gipson said that she did. After the prosecutor explained that Gipson’s belief was contrary to the
law, Gipson agreed that she could follow the law, but also stated that she would need 100%
certainty to convict someone. Gipson was then removed from the jury by the prosecutor.
Following Gipson’s removal and the addition of a white juror, the prosecutor stated that she was
once again satisfied with the all-white jury.
Here the prosecutor was consistent in that she had previously removed Thomas Zandbergen
after he had indicated that he believed a victim must resist. This circumstance, when combined
with the knowledge that Gipson would require 100% certainty to convict, does not raise an
inference of discriminatory intent.
3.
Considering all relevant circumstances surrounding the prosecutor’s use of peremptories
to remove every African-American from the jury panel—one-by-one—until Parks was left with
an all-white jury, Parks has met his burden in establishing a prima facie case that the prosecutor’s

21

APP_022

(23 of 28)
Case No. 18-2106, Parks v. Chapman
use of peremptory challenges was discriminatory. I find no reasonable argument that Parks’
counsel’s performance was not deficient under Strickland.7
First, the sheer numbers involved make out a strong prima facie case of discrimination.
Although we cannot be certain about the number of African-American jurors drawn from the
venire on the initial jury panel, the various affidavits show that there were at one point or another
a total of four on the panel.8 As in Batson, each African-American juror was removed until Parks
faced an all-white jury. 476 U.S. at 83 (“The prosecutor used his peremptory challenges to strike
all four black persons on the venire, and a jury composed only of white persons was selected.”).
This suggests a pattern to eliminate African-Americans from the jury panel.
Second, what can be gathered from the voir dire transcript does little to refute the inference
that the prosecutor’s strikes were used in a racially discriminatory manor. While the circumstances
surrounding the removal of Shabazz and Gipson, when analyzed in a vacuum, do not suggest
discrimination, the record does nothing to refute inferences that the removal of Scrivens and
Moody were the product of purposeful discrimination. The fact that the prosecutor exercised
peremptory challenges to remove Scrivens and Moody from the jury panel but not two similarly
situated jurors is enough to raise an inference of discrimination.
It is well established that a Batson violation may be shown by disparate treatment
of white and minority jurors—that is, if a side-by-side comparison[] of some black
[potential jurors] who were struck and white ones who were not shows that the only
material distinction between the removed black and the retained white individuals
is their race. In conducting a comparative juror analysis, the compared jurors need
not be similarly situated in all respects. In fact, the empaneled white jurors need

Like the majority, I take no position on whether AEDPA deference applies to Parks’ Batson claim. I find
that Parks’ counsel’s performance was deficient even under the more demanding standard of Strickland through the
lens of AEDPA. See Harrington v. Richter, 562 U.S. 86, 105 (2011).
7

Moody stated in her undisputed affidavit that she “was one of three African-Americans in the jury pool”
because she had seen only two other African-Americans in the pool. The original jury panel also included at least one
African-American, Scrivens, who was removed from the panel before Moody moved from the pool to the panel.
8

22

APP_023

(24 of 28)
Case No. 18-2106, Parks v. Chapman
not even match the stricken black venirepersons in all of the characteristics the
prosecution identified in striking the black venirepersons.
United States v. Atkins, 843 F.3d 625, 631 (6th Cir. 2016) (internal citations and quotation marks
omitted, alterations in original). While there is an argument that Moody and Enos’ potential
proximity to some aspects of the case are distinct, there is no discernible difference between
Scrivens and Williams. The only relevant information revealed by both is that they were employed
as engineers.

Scrivens, an African-American, was removed during the prosecutor’s first

opportunity to execute a peremptory challenge and Williams was not removed during either of the
prosecutor’s first two chances to exercise peremptories. “The Constitution forbids striking even a
single prospective juror for a discriminatory purpose.” Snyder v. Louisiana, 552 U.S. 472, 478
(2008) (quoting United States v. Vasquez-Lopez, 22 F.3d 900, 902 (9th Cir. 1994)).
Finally, although the disparate treatment of even one pair of similarly situated jurors is
enough to satisfy the first step of Batson, the timing of the prosecutor’s use of challenges leaves
no doubt. Each time an African-American juror was added to the jury panel, the prosecutor
exercised a peremptory challenge to remove that juror. Scrivens was presumably the only AfricanAmerican on the initial panel. He was removed in the prosecutor’s first set of peremptory
challenges. Before the prosecutor was able to execute any more challenges, Shabazz was added
to the jury panel. Shabazz was removed with the prosecutor’s second set of challenges. When the
prosecutor was again given an opportunity to use her remaining peremptory challenges, faced with
a presumably all-white jury,9 she stated that she was satisfied with the jury. Then, following Parks’
counsel’s removal of a different juror, Moody was added. The prosecutor removed Moody at her
next opportunity and then repeated the same action after Gipson took Moody’s place. A white

9

The only potential juror whose race was unknown from the panel at that time was Brancato. There is no
evidence indicating that Brancato, previously in the jury pool with Moody, is African-American.

23

APP_024

(25 of 28)
Case No. 18-2106, Parks v. Chapman
juror was added in Gipson’s place, and the prosecutor was once again content with an all-white
jury.
B.
To be entitled to relief,10 however, Parks must show actual prejudice because his real claim
lies under Strickland. Despite the majority’s one-sided portrait of the underlying facts of the
case,11 I agree that Parks fails to show actual prejudice. Although there were only two witnesses
to the encounter, and both stuck to their versions of the facts, Jefferson’s account is far more

10

Parks maintains that he is entitled to an evidentiary hearing to establish a Batson violation. The government
contends that an evidentiary hearing cannot be held due to the amount of time that has passed since the trial (over
eighteen years) and the Supreme Court’s decision in Cullen v. Pinholster, 563 U.S. 170, 185 (2011) (barring
evidentiary hearings in federal court where a state court has already ruled on the merits). Passage of time arguments
aside, I agree with the majority that we need not decide whether an evidentiary hearing is precluded, not because a
hearing could only seek “rank speculation,” Op. at 12, but because Parks has already succeeded in showing what an
evidentiary hearing would set out to find—that his trial counsel’s performance was deficient.
11

A broader rendition of the facts is necessary to assess the prejudice prong. Most of the trial focused on
the conflicting testimonies of Parks and the victim, Beverly Jefferson. Jefferson testified that, in the early morning of
April 22, 2001, she awoke to an unknown man (Parks) knocking on her door. Upon answering the door, Parks asked
to use Jefferson’s phone, and Jefferson showed him inside her apartment. After using the phone, Jefferson testified
that Parks hit her in the mouth several times and told her to remove her clothes or else he would strike her again. Parks
then forcibly engaged in non-consensual vaginal intercourse with Jefferson until she managed to secure a knife from
the kitchen. Following a brief struggle, Jefferson handed the knife to Parks because Parks threatened to destroy her
possessions. Parks then penetrated Jefferson (anally and orally), but he eventually fell asleep on Jefferson’s bed as
she performed oral sex on him, during which time Jefferson called 911 and indicated that she had been raped. Parks
awoke before the police arrived and continued to rape Jefferson until Jefferson heard the police at her door and
screamed for them to enter. After hearing her pleas for help, the police kicked in the door and arrested Parks just prior
to 9:00 A.M.
Parks testified to a very different set of events. According to Parks, he was on his way home after staying up
with his friends all night and purchasing marijuana, which he smoked while he walked home. As he was walking,
Parks heard Jefferson call out to him from the door of her apartment building. Jefferson asked Parks if he had any
“dope.” Parks informed her that he did not, and Jefferson proceeded to offer him sex in exchange for $20. Although
Parks explained that he only had $10 and began to leave, Jefferson relented and agreed to the lower amount. At that
point, the two walked up to Jefferson’s apartment and began talking. Jefferson excused herself to get ready and
proceeded to smoke something that Parks could only describe as not a cigarette. While Jefferson was getting ready,
Parks started to call his cousin from her phone but decided against it.
According to Parks, once Jefferson was ready, she motioned him to the bed, and they engaged in intercourse.
Parks eventually dozed off while Jefferson was performing oral sex on him and later awoke to see Jefferson sitting at
her window. Parks confronted Jefferson, and she accused him of lying about how much money he had. Parks then
agreed to pay Jefferson $20 if she would “let [him] finish,” and the two once again engaged in consensual intercourse
until the police arrived.

24

APP_025

(26 of 28)
Case No. 18-2106, Parks v. Chapman
credible because, unlike Parks’, her version corroborates their interactions with the police and the
physical evidence.
First, it is certain that, on the morning of April 22, 2001, Jefferson called 911 and reported
that she had been raped by Parks. Parks posits that perhaps Jefferson called 911 because she was
displeased with the fact that Parks had fallen asleep while she performed oral sex or that she
believed Parks was not going to pay her as he had promised. To be sure, Parks does not claim to
know the reason that Jefferson called the police claiming that she had been raped, but his potential
explanations seem much less plausible than the more straightforward motive of a victim of an
ongoing sexual assault calling 911 to report it.
Second, when officers arrived, Jefferson had a large gash on the inside of her lip which
required between seven and fourteen stitches. The laceration was treated by an emergency
physician who stated that the wound appeared to be less than twelve hours old. Parks claims that
he never struck Jefferson and that he was unaware of the laceration inside her mouth. Again,
Parks’ description seems less plausible. It is unlikely that someone would consensually engage in
intercourse with such a significant wound or that Parks would never have noticed the blood which
Jefferson testified dripped onto her clothes and furniture.
Third, Jefferson was examined by a sexual assault nurse examiner the same morning who
discovered two abrasions and one laceration on the outer portion of her vagina and a hemorrhoidal
tag and a laceration on the outer portion of her anus. The nurse found the injuries to be “very
consistent” with forced sex but was unable to rule out the possibility that the injuries were caused
by rough sex. Like the comparison between their conflicting accounts regarding the wound to
Jefferson’s mouth, it is unlikely that someone with such significant injuries would want to continue
to engage in the same conduct that caused or would exacerbate those injuries.

25

APP_026

(27 of 28)
Case No. 18-2106, Parks v. Chapman
Additionally, while Parks’ character witnesses (a former employee in charge of
neighborhood outreach at Parks’ church and his sister) painted a picture of someone not capable
of committing the acts alleged by the State, this testimony cannot overcome the physical evidence
against Parks. In sum, the case against Parks is strong enough, such that he cannot show actual
prejudice to “undermine confidence in the outcome of the trial.” Strickland, 466 U.S. at 694.
Therefore, Parks is not entitled to habeas relief pursuant to his Batson/Strickland claim.
II.
As for Parks’ fair cross-section claim, there is no dispute that Parks’ claim that his jury
pool was not drawn from a fair cross-section of his community was meritorious. Like other
defendants who were subject to the Kent County computer glitch, Parks’ claim is not that his
particular venire was unfair, but that the pool from which the jury was drawn was unfair. See
Ambrose, 684 F.3d at 645. “The Sixth Amendment secures to criminal defendants the right to be
tried by an impartial jury drawn from sources reflecting a fair cross section of the community.”
Berghuis v. Smith, 559 U.S. 314, 319 (2010) (emphasis added). By going to trial, Parks put his
trust in the fairness of the procedures of the 17th Judicial Circuit Court (Kent County, Michigan).
The Kent County Court’s systematic exclusion of minority jurors abused Parks’ trust and failed to
safeguard that which every criminal defendant is guaranteed by the Sixth Amendment: a jury
drawn from a source representing a fair cross-section of the community. U.S. Const. Amend VI;
Taylor v. Louisiana, 419 U.S. 522, 530 (1975) (“We accept the fair-cross-section requirement as
fundamental to the jury trial guaranteed by the Sixth Amendment.”); Brown v. Allen, 344 U.S. 443,
474 (1953) (“Our duty to protect the federal constitutional rights of all [requires that] the source
[of jurors] reasonably reflects a cross-section of the population suitable in character and
intelligence for that civic duty.”).

26

APP_027

(28 of 28)
Case No. 18-2106, Parks v. Chapman
Moreover, it is clear that Parks’ procedural default should be excused because the Kent
County computer glitch, which caused the systematic underrepresentation of African-Americans
in jury pools from 2001 to 2002,12 was not discovered until after his conviction. I agree with the
majority, however, that Weaver v. Massachusetts, 137 S. Ct. 1899 (2017), does not relieve Parks’
burden of showing prejudice,13 and that he remains bound by our holding in Ambrose, applying
the actual prejudice standard. 684 F.3d at 640. Therefore, like his Batson/Strickland claim,
because Parks has not shown actual prejudice, he is not entitled to relief.

12
Research from the Kent County Jury Management System Report indicates that the absolute disparity (the
difference between the percentage of jury-eligible African-Americans in the County and in the jury pool) was 3.45%
(African-Americans made up approximately 8.24% of the County compared to their actual jury pool representation of
4.79%) and the comparative disparity (the absolute disparity relative to the percentage of jury-eligible AfricanAmericans in the County) was 42% (3.45% divided by 8.24%). Ambrose, 684 F.3d at 642-43.

13

Parks points out that the Supreme Court was clear that their holding applies “only in the context of trial
counsel’s failure to object to the closure of the courtroom during jury selection[,]” Weaver, 137 S. Ct. at 1907, and
that the Court left open the possibility that there may be situations in which a more egregious error requires automatic
reversal, or, at least, a minimal showing of actual prejudice despite being procedurally defaulted. Id. at 1913. Parks
argues that his claim differs from Weaver’s in two material aspects and, therefore, falls into the category of claims
which require automatic reversal. First, Parks’ claim is procedurally defaulted, not due to trial counsel’s error, but
because the error was not revealed until the publication of the Grand Rapids Press report long after the trial. Second,
the error here is more egregious. Parks’ claim is based on the violation of his right to a jury pool drawn from a fair
cross-section of the community—an error involving a greater level of fundamental unfairness than in Weaver.
I agree with Parks that the circumstances surrounding the procedural default and error in Weaver do not
implicate the same level of fundamental unfairness he faces here. “The purpose of a jury is to guard against the
exercise of arbitrary power—to make available the commonsense judgment of the community as a hedge against the
overzealous or mistaken prosecutor and in preference to the professional or perhaps overconditioned or biased
response of a judge.” Taylor, 419 U.S. at530 (citing Duncan v. Louisiana, 391 U.S. 145, 155-56 (1968)). A jury
drawn from only certain segments of the community fails to provide the impartiality necessary to sustain a judicial
system based on trial by jury. It is every trial court’s constitutional duty to ensure this impartiality.
Unfortunately for Parks, the Supreme Court was clear that Weaver’s scope is limited: “[T]his opinion does
not address whether [a particular structural error causing fundamental unfairness] should be [assessed] different[ly] if
the errors were raised . . . in an ineffective-assistance claim on collateral review.” Weaver, 137 S. Ct. at 1912. Despite
Parks’ arguments to the contrary, Weaver declined to address the proper standard when faced with a claim such as his
or the petitioners’ in Ambrose. We are therefore bound by precedent to conclude that Parks must show actual
prejudice. There may be substantial merit to the application of Weaver’s fundamental error analysis to Parks’ fair
cross-section claim, but a panel of this court cannot overrule Ambrose. This requires an inconsistent decision of the
Supreme Court—which Weaver is not—or a decision of the en banc court. See Brumbach v. United States, 929 F.3d
791, 795 (6th Cir. 2019); Salmi v. Sec’y of Health & Human Servs., 774 F.2d 685, 689 (6th Cir. 1985).

27

APP_028

A-3

Case 2:05-cv-10036-DML-CEB ECF No. 94 filed 09/19/18

PageID.1838

Page 1 of 6

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
CURTIS PARKS,
Petitioner,

Case Number 05-10036
Honorable David M. Lawson

v.
MILLICENT WARREN,
Respondent.
________________________________________/
OPINION AND ORDER DENYING MOTION FOR RECONSIDERATION
Petitioner Curtis Parks has filed a motion asking the Court to reconsider its decision
denying his petition for a writ of habeas corpus after his case was remanded by the court of appeals.
Parks argues that the Supreme Court’s decision in Weaver v. Massachusetts, --- U.S. ---, 137 S.
Ct. 1899 (2017), changes the standard of review established by the Sixth Circuit and applied by
this Court for determining if prejudice has been shown to excuse a habeas petitioner’s procedural
default in a case involving structural error. Because Weaver does not compel that conclusion, and
the Sixth Circuit rejected that argument already in another case, this Court will deny the
petitioner’s motion.
Parks was convicted of criminal sexual conduct in Kent County, Michigan in 2001. He
believes his conviction was tainted by the now-well-known “computer glitch” that resulted in the
elimination from jury service of citizens living in a certain zip code. See Ambrose v. Booker, 684
F.3d 638, 640-42 (6th Cir. 2012); Garcia-Dorantes v. Warren, 978 F. Supp. 2d 815, 826-30 (E.D.
Mich. 2013), aff'd, 801 F.3d 584 (6th Cir. 2015). That zip code happened to include a large
minority population, and therefore the petitioner argued that his jury was not drawn from a fair
cross-section of the community.

APP_029

Case 2:05-cv-10036-DML-CEB ECF No. 94 filed 09/19/18

PageID.1839

Page 2 of 6

Because Parks did not raise his fair cross-section claim in the trial court, this Court was
required to address whether a state procedure barred consideration of the merits of his claim, and,
if so, whether Parks had demonstrated cause for failing to object and prejudice resulting from the
error. See Coleman v. Thompson, 501 U.S. 722, 746-50 (1991). The Court held that Parks
demonstrated cause, and that because the error was deemed “structural,” prejudice was presumed.
However, the Court concluded that Parks’s claim failed on the merits. Parks v. Warren, 773 F.
Supp. 2d 715 (E.D. Mich. 2011), vacated and remanded sub nom Parks v. Klee, 555 F. App’x 573
(6th Cir. 2014) (mem). The Court also held that the petitioner had not established that the
prosecutor had used peremptory challenges to exclude improperly minorities from the jury in
violation of Batson v. Kentucky, 476 U.S. 79 (1986). On appeal by the petitioner, the court of
appeals vacated the decision under the authority of Ambrose, which held that to excuse a
procedural default, actual prejudice must be shown even for structural errors and cannot be
presumed. See Ambrose, 684 F.3d at 649. The court of appeals remanded the case for this Court
to address in the first instance whether Parks had demonstrated actual prejudice to excuse the
procedural default of the fair cross-section claim. The court of appeals also observed that when
ruling on the Batson issue, this Court had overlooked a voir dire transcript that was in the record.
The remand instruction thus also allowed the Court to “consider any arguments Parks may wish to
make” on that issue.
The Court permitted supplemental briefing and considered the petitioner’s challenges
under the Sixth Amendment regarding the racial bias of the defectively selected jury pool, his
claim that the prosecutor improperly used peremptory challenges to exclude minority jurors, and
his claim that trial counsel was ineffective by failing to object to the panel based on the purported
Batson violation. In an opinion and order issued on September 28, 2017, the Court held that the

-2APP_030

Case 2:05-cv-10036-DML-CEB ECF No. 94 filed 09/19/18

PageID.1840

Page 3 of 6

petitioner had not shown actual prejudice to excuse the procedural default of his fair cross-section
claim and he did not show either cause or prejudice to excuse the default of his Batson claim. The
Court also held that the Strickland claim was without merit because it was premised on the failure
to raise a Batson challenge, but trial counsel could not be faulted for failing to make that objection
when there was no evidence in the record of the jury selection that could support a valid inference
of purposeful discrimination. The Court therefore denied the petition.
Parks now contends that the Court must take another look at the issue in light of Weaver v.
Massachusetts. In that case, the Supreme Court considered the requirement of showing prejudice
in a slightly different context: when a defendant alleging ineffective assistance of counsel contends
that his lawyer performed deficiently by failing to contest a structural error. In Weaver, the
defendant was convicted of murder after a trial in which the courtroom was closed to the public
during part of the jury selection. His lawyer did not object to the closure, which Weaver contended
violated his right to a public trial under the Sixth Amendment. And Weaver argued that his
lawyer’s failure to object or raise the issue on direct review amounted to ineffective assistance of
counsel. The Supreme Court acknowledged that the constitutional violation resulting from the
courtroom closure would be considered a structural error if raised on direct review, automatically
entitling the defendant to a new trial. Weaver, 137 S. Ct. at 1905. But a defendant alleging
ineffective assistance of counsel must show both deficient performance and prejudice. Id. at 1910
(citing Strickland v. Washington, 466 U.S. 668, 687 (1984)). The Supreme Court was unwilling
to relax that standard by presuming prejudice, even when the deficient performance impacted a
procedural right that was deemed structural. Id. at 1912.
The Weaver court explained that the term “structural error” “means only that the
government is not entitled to deprive the defendant of a new trial by showing that the error was

-3APP_031

Case 2:05-cv-10036-DML-CEB ECF No. 94 filed 09/19/18

PageID.1841

Page 4 of 6

‘harmless beyond a reasonable doubt.’” Id. at 1910. Automatic reversal results when a structural
error is established in direct review. Ibid. That is not so, however, when the error emerges as part
of an ineffective-assistance-of-counsel claim, where prejudice must be shown. Ibid. But prejudice
can be “defined in different ways depending on the context in which it appears.” Ibid. The Court
explained:
In the ordinary Strickland case, prejudice means “a reasonable probability that, but
for counsel’s unprofessional errors, the result of the proceeding would have been
different.” But the Strickland Court cautioned that the prejudice inquiry is not
meant to be applied in a “mechanical” fashion. For when a court is evaluating an
ineffective-assistance claim, the ultimate inquiry must concentrate on “the
fundamental fairness of the proceeding.” Petitioner therefore argues that under a
proper interpretation of Strickland, even if there is no showing of a reasonable
probability of a different outcome, relief still must be granted if the convicted
person shows that attorney errors rendered the trial fundamentally unfair.
Id. at 1910-11. Accepting the defendant’s proposition for the moment, the Court nonetheless
declared, “Strickland prejudice is not shown automatically. Instead, the burden is on the defendant
to show either a reasonable probability of a different outcome in his or her case or, as the Court
has assumed for these purposes, to show that the particular . . . violation was so serious as to render
his or her trial fundamentally unfair.” Id. at 1911.
Parks argues that this restatement of the prejudice concept should alter the showing he must
make to excuse a procedural default. But that conclusion cannot be teased from Weaver’s
language. As the Weaver Court noted, “the term ‘structural error’ carries with it no talismanic
significance as a doctrinal matter”; it means only that harmless error will not excuse a violation.
Id. at 1910. Therefore, whether the error is classified as “structural” does not dictate whether the
petitioner must show prejudice to excuse the failure to preserve the issue; it merely determines
whether direct review of the error is subject to analysis for harmless error. And in Ambrose v.
Booker, the Sixth Circuit held that a habeas petitioner must show “actual prejudice to excuse [his]
procedural default, even if the error is structural.” 684 F. 3d at 649.
-4APP_032

Case 2:05-cv-10036-DML-CEB ECF No. 94 filed 09/19/18

PageID.1842

Page 5 of 6

The Court is somewhat puzzled about why the petitioner filed this motion because, before
it was filed, the Sixth Circuit addressed the same arguments raised here by him, when it denied a
certificate of appealability to the petitioner in Carter v. Lafler, No. 17-1409, 2017 WL 4535932
(6th Cir. Aug. 30, 2017). As the court of appeals explained:
Reasonable jurists [would] not debate whether the district court was correct in
denying Carter’s motion to alter or amend the judgment. In that motion, Carter
sought a COA on the issue of whether “prejudice should be presumed in cases
involving underlying structural error.” However, as the district court correctly
observed, this court had already decided that issue, requiring Carter to show “actual
prejudice to excuse [his] procedural default, even if the error is structural.” Ambrose
v. Booker, 684 F.3d 638, 649 (6th Cir. 2012). Carter based his request on the
Supreme Court’s grant of certiorari in the case of Weaver v. Massachusetts, 137 S.
Ct. 1899 (2017). The Supreme Court has since decided Weaver, and the holding of
Weaver is unavailing for Carter. See Weaver, 137 S. Ct. at 1913-14 (holding that
prejudice is not presumed in cases involving claims of ineffective assistance of
counsel that result in structural error). Accordingly, reasonable jurists would not
debate whether the district court was correct in its procedural reasoning.
2017 WL 4535932, at *3, reh’g denied (Oct. 26, 2017), cert. denied, 138 S. Ct. 2582 (2018).
Although Carter was an unpublished decision, it squarely addressed and rejected the same position
advanced by the petitioner here where he contends that Weaver abrogated the rule laid down in
Ambrose and requires that the Court presume prejudice on collateral review of any claim
implicating “structural error.”
Also of note, in a footnote to his motion the petitioner alluded to a parallel appeal to the
Sixth Circuit raising the same issue, by another Michigan prisoner, Eric Powell. However, that
appeal was voluntarily dismissed in January 2018, for reasons that are not apparent from the
record. Powell v. Howes, No. 16-2410, 2018 WL 1755849 (6th Cir. Jan. 23, 2018). In any event,
the Court has not located any decision calling into question the viability of the holding in Ambrose
after Weaver, and in the only authoritative ruling on point, the Sixth Circuit rejected the same
arguments advanced by the petitioner in his pending motion.

-5APP_033

Case 2:05-cv-10036-DML-CEB ECF No. 94 filed 09/19/18

PageID.1843

Page 6 of 6

Motions for reconsideration may be granted under E.D. Mich. LR 7.1(h)(1) when the
moving party shows (1) a “palpable defect,” (2) that misled the court and the parties, and (3) that
correcting the defect will result in a different disposition of the case. E.D. Mich. LR 7.1(h)(3). A
“palpable defect” is a defect which is obvious, clear, unmistakable, manifest, or plain. Mich. Dep’t
of Treasury v. Michalec, 181 F. Supp. 2d 731, 734 (E.D. Mich. 2002) (citations omitted). The
petitioner has not made the required showing.
Accordingly, it is ORDERED that the motion for reconsideration [R. 90] is DENIED.
s/David M. Lawson
DAVID M. LAWSON
United States District Judge
Date: September 19, 2018
PROOF OF SERVICE
The undersigned certifies that a copy of the foregoing order was
served upon each attorney or party of record herein by
electronic means or first-class U.S. mail on September 19,
2018.
s/Susan K. Pinkowski
SUSAN K. PINKOWSKI

-6APP_034

A-4

2:05-cv-10036-DML-CEB Doc # 86 Filed 09/28/17 Pg 1 of 23

Pg ID 1783

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
CURTIS PARKS,
Petitioner,
v.

Case Number 05-10036
Honorable David M. Lawson
Magistrate Judge Charles E. Binder

MILLICENT WARREN,
Respondent.
________________________________________/
OPINION AND ORDER DENYING PETITION FOR
WRIT OF HABEAS CORPUS (AFTER REMAND)
This case is before the Court once again, this time after remand by the court of appeals. The
Court had denied the petition, addressing primarily the question whether a computer glitch by the
Kent County, Michigan jury clerk resulting in systematic exclusion of minority jurors from the jury
pool denied the petitioner his right to a jury composed of a fair cross-section of the community, as
guaranteed by the Sixth Amendment. Parks v. Warren, 773 F. Supp. 2d 715 (E.D. Mich. 2011), on
reconsideration in part, No. 05-10036, 2011 WL 5838486 (E.D. Mich. Nov. 21, 2011), abrogated
by Garcia-Dorantes v. Warren, 978 F. Supp. 2d 815 (E.D. Mich. 2013), vacated No. 11-2531 (6th
Cir. Feb. 18, 2014). The Court also rejected the petitioner’s challenge to the prosecutor’s use of
peremptory challenges of minority jurors asserted under Batson v. Kentucky, 476 U.S. 79 (1986).
When addressing the petitioner’s fair cross-section claim, this Court held that such a defect
amounted to a structural error, absolving the petitioner of the obligation to prove prejudice. The
Court denied the claim nonetheless, because the statistical evidence failed to show that “the
representation of [the excluded] group in venires from which juries are selected is not fair and
reasonable in relation to the number of such persons in the community.” Parks, 773 F. Supp. 2d at

APP_035

2:05-cv-10036-DML-CEB Doc # 86 Filed 09/28/17 Pg 2 of 23

Pg ID 1784

727 (quoting Duren v. Missouri, 439 U.S. 357, 364 (1979)). Since that time, however, the court of
appeals has held that even if the Kent County aberration, which was addrressed in other federal
habeas cases as well, was a structural error, a habeas petitioner must show prejudice to overcome
a procedural-default defense asserted by the state. See Ambrose v. Booker, 684 F.3d 638, 649 (6th
Cir. 2012). The court of appeals remanded this case so this Court could address the issue of
prejudice. The court of appeals also observed that when considering the petitioner’s Batson issue,
this court overlooked a voir dire transcript that was in the record. The remand instruction allowed
this Court to “consider any arguments Parks may wish to make” on that issue.
The Court has reviewed the record and concludes that no prejudice has been demonstrated
that would entitle the petitioner to habeas relief on his fair cross-section argument. The Court also
has reviewed the voir dire transcript and finds no merit in the Batson issue. Therefore, the petition
for writ of habeas corpus will be denied.
I
The petitioner did not raise either his fair cross-section claim or his Batson challenge in the
state trial court, and therefore the issue of procedural default was central to this Court’s previous
decisions. A procedural default is “a critical failure to comply with state procedural law.” Trest v.
Cain, 522 U.S. 87, 89 (1997). It will bar consideration of the merits of a federal claim if the state
rule is actually enforced and is an adequate and independent ground for the state court’s decision.
Coleman v. Thompson, 501 U.S. 722, 750 (1991); Monzo v. Edwards, 281 F.3d 568, 576 (6th Cir.
2002). A procedural default can be excused by a showing of cause and prejudice. Coleman, 501
U.S. at 750. The Court has found cause to excuse the petitioner’s lack of objection to the fair crosssection claim, and there is no reason to revisit that determination. To show prejudice, the petitioner

-2-

APP_036

2:05-cv-10036-DML-CEB Doc # 86 Filed 09/28/17 Pg 3 of 23

Pg ID 1785

must show that a “careful review of [the] trial record indicates that there is a reasonable probability
that a different jury would have reached a different result.” Ambrose, 684 F.3d at 649 (citing
Francis v. Henderson, 425 U.S. 536 (1976)); id. at 598, 599 n.8 (“The question is not whether the
petitioner missed his chance to stand trial before a more merciful jury panel or a panel with a
particular racial balance, but rather whether there is a reasonable probability that a different jury
would have reached a different result.” (quotations omitted)). “The most important aspect to the
inquiry is the strength of the case against the defendant.” Id. at 593. If the Court finds that the trial
record shows “a case against [the petitioner] so strong, and [a] defense so weak, that [it would be]
highly improbable that an unbiased jury could acquit,” then “actual prejudice would not be shown.”
Id. at 593-94 (quotations and citations omitted).
The proper determination of prejudice, therefore, requires a review of the trial evidence.
II.
The essence of the case is a charge of sexual assault by the petitioner. The victim, Beverly
Jefferson, claimed that the petitioner penetrated her three times against her will, and the petitioner
asserted that the sexual encounter was consensual in exchange for money. A Kent County,
Michigan jury rejected the petitioner’s version and convicted him. The petitioner was sentenced on
November 29, 2001 to a prison term of fifteen to forty years. He was released on parole on April
21, 2016, and his term of supervised release presently is set to end on April 21, 2018.
A. Beverly Jefferson
At trial, complainant Beverly Jefferson testified that, on the morning of April 22, 2001, she
was roused from bed by a loud knock at her door. Trial Tr. Vol. II at 56 (Oct. 16, 2001) (Pg ID
246). Jefferson opened the door and encountered a man, whom she had not met before and did not

-3-

APP_037

2:05-cv-10036-DML-CEB Doc # 86 Filed 09/28/17 Pg 4 of 23

Pg ID 1786

recognize, but whom she identified at trial as Parks, who asked to use her phone. Id. at 57, 63.
Jefferson allowed the man to enter, and directed him to a sofa in the front room, where he sat down
and made two calls. Id. at 57-58.
After Parks finished using the phone, Jefferson told him it was time for him to leave, and in
response Parks “stood up, and he came around [the] coffee table, and he hit [Jefferson] in the
mouth.” Id. at 60. Jefferson fell down between the sofa and a chair, and Parks then hit her again.
Ibid. Jefferson asked Parks if he was going to rape her, and Parks responded by telling her to take
off her pants, or he would hit her again. Id. at 60-61. Parks took a condom out of his pocket, told
Jefferson to lay on the floor, and proceeded to rape her. Id. at 61.
After Parks was done, Jefferson asked if she could go to the bathroom and if Parks would
help her up from the floor. Id. at 61-62. Parks then followed Jefferson through the kitchen toward
the bathroom, and on her way through the kitchen Jefferson grabbed a knife and “ran at him with
it.” Id. at 62. Parks ran into the bedroom as Jefferson pursued him with the knife, telling him
repeatedly to leave. Id. at 62-63. Parks seized a laundry basket full of clothes from the bedroom
and used it to fend off Jefferson’s advance by swinging the basket around until the clothes flew out
and the handle broke off the basket. Id. at 63-64. At some point the two wound up back in the front
room, where Parks told Jefferson he was not going to leave, and that he would break her TV and
VCR. Id. at 64-65. Jefferson then desisted and put down the knife, because she did not want Parks
to further ravage her home. Id. at 65.
Parks then told Jefferson to give him the knife, which she did, and then he told her to go to
the bedroom, where he had sex with her again and made her perform oral sex on him. Id. at 65-67.
While they were in the bedroom, Parks told Jefferson, “I’ve been watching you a long time,” and

-4-

APP_038

2:05-cv-10036-DML-CEB Doc # 86 Filed 09/28/17 Pg 5 of 23

Pg ID 1787

“I really like you.” Id. at 67. Parks then fell into a state of half-sleep on the bed, nodding in and out,
with the knife still in his hand. Id. at 68. Eventually Parks fell fully asleep and the knife slipped out
of his hand, at which point Jefferson seized the knife, went to the front room, dialed 911, told the
police she had been raped, and asked them to send an officer immediately. Id. at 68-69.
While she waited for the police, Jefferson heard Parks begin to rouse, and she called back
and asked the police to hurry because the man who had raped her still was in her house and was
waking up. Id. at 69-70. Before the police arrived, Parks woke up, came out to the front room, and
told Jefferson to get on the floor, where he proceeded to rape her again. Id. at 70-71. Jefferson
heard police coming up the stairs to her door, and she began screaming, but Parks held his hand over
her mouth in an attempt to silence her. Id. at 71. The police then kicked in the door and ordered
Parks to get off of Jefferson and get down on the ground. Id. at 71. After Parks was arrested by the
police, Jefferson was taken to the emergency room where she received stitches to close two injuries
to her inner and outer lip. Id. at 73.
B. Police and Medical Treaters
Grand Rapids Police Officer Michael LaFave testified that he was dispatched to Jefferson’s
home around 8:50 p.m., in response to a report of a rape that had just occurred. Trial Tr. Vol. II at
128-29 (Oct. 16, 2001) (Pg ID 264-65). LaFave was on patrol less than a block away from
Jefferson’s residence, and it took him less than a minute to arrive. Ibid. When he arrived, he walked
up the stairs and knocked on the door. Id. at 129. LaFave heard “some bumping around” inside the
apartment, and “a female inside called to [him]” and told him to come in. Ibid. LaFave tried the
door, but it was locked; when he yelled that the door was locked and he could not enter, the female
“tried to scream, a real terrified scream,” and again told him to come in. Ibid. LaFave then kicked

-5-

APP_039

2:05-cv-10036-DML-CEB Doc # 86 Filed 09/28/17 Pg 6 of 23

Pg ID 1788

in the door and, upon entering the apartment, saw Jefferson on her back on the floor and Parks on
his knees over her, with his pants around his knees, “doing something sexual.” Ibid. Parks stood
up and lunged at LaFave, who drew his weapon and ordered Parks to get on the ground; Parks
looked at LaFave, and then complied. Id. at 129-30.
Crime scene technician Julie Chan testified that she was dispatched to Jefferson’s apartment
around 9:00 a.m. on the morning following the incident. Trial Tr. Vol. III at 22-23 (Oct. 17, 2001)
(Pg ID 274). Jefferson was still in the apartment when Chan arrived. Id. at 24. Chan photographed
the scene and Jefferson’s injuries, and she collected a knife from the scene after Jefferson pulled
back a rug and showed Chan where it was. Id. at 23-24. Chan also collected what appeared to be
a used condom, and she dusted the knife and a fan that she found on the bed in the bedroom for
fingerprints. Id. at 24-27. Jefferson stated that she did not know how the fan got on the bed. Id. at
25. Chan did not find any fingerprints on the knife, but she testified that prints she lifted from the
fan matched the petitioner. Id. at 26-27.
Emergency room doctor Brian Buller testified that he treated Jefferson around 9:55 a.m. on
the morning following the incident for a laceration on the inside of her left upper lip, which required
stitches to close. Trial Tr. Vol III. at 11-13 (Oct. 17, 2001) (Pg ID 271). Buller stated that the injury
appeared to him to be less than twelve hours old. Id. at 12.
Sexual assault nurse Suzanne Reiter saw Jefferson at her office around 11:00 a.m. on the
morning following the incident. Trial Tr. Vol. II at 38 (Oct. 16, 2001) (Pg ID 242). She noted
injuries to Jefferson’s mouth that appeared to be “very fresh.” Id. at 39. Reiter examined Jefferson
and noted multiple abrasions and lacerations around her genitalia and anus; she observed that one
of the lacerations still was bleeding. Id. at 41. Reiter testified based on her experience that the

-6-

APP_040

2:05-cv-10036-DML-CEB Doc # 86 Filed 09/28/17 Pg 7 of 23

Pg ID 1789

injuries were “very consistent” with sexual assault, and that “[w]e see this type of injuries a lot with
forced sex.” Id. at 42-43.
C. Petitioner
Parks testified that he was walking past Jefferson’s apartment on his way home, when
Jefferson called out to him from her apartment door and told him to come over. Trial Tr. Vol. III
at 71-72 (Oct. 17, 2001) (Pg ID 286). According to Parks, Jefferson asked Parks if he had any
drugs, but he told her he did not. Id. at 72-73. Parks went to leave, but Jefferson said, “hold on,”
and then, while patting her privates, asked him, “Do you want to hit this mother f****er?” Id. at
73. Jefferson proposed an exchange of sex for $20, but Parks replied that he had only $10 with him.
Ibid. Parks again went to leave, but Jefferson again told him to “hold on,” and then she said, “I
guess that’s going to have to do.” Ibid.
Parks went into the apartment with Jefferson, and Jefferson sat down on a chair, drinking a
beer. Id. at 74-75. Parks asked Jefferson where they should have sex, but Jefferson told him to wait
and that she would be ready in a bit. Id. at 76. Parks noticed a phone in the room and asked
Jefferson if he could use it. She said he could, and Parks dialed two or three numbers, but did not
complete any calls. Id. at 76. Shortly thereafter, Jefferson and Parks went to the bedroom and
proceeded to have sex. Id. at 77-79. After they had intercourse and Jefferson performed oral sex
on him, Parks fell asleep. Id. at 83.
When Parks woke up, Jefferson was not in the bedroom. Id. at 87. Parks got up and went
out to the front room, where he saw Jefferson looking out the window. Ibid. Jefferson then yelled
at Parks that he had lied to her, and asked if he wasn’t going to pay her. Ibid. Parks then gave
Jefferson some money, and the two got on the floor and began to have sex again. Id. at 87-88.

-7-

APP_041

2:05-cv-10036-DML-CEB Doc # 86 Filed 09/28/17 Pg 8 of 23

Pg ID 1790

While they were having sex, there was a knock at the door, Parks heard someone outside yell,
“police,” and then Jefferson started screaming and jumped up. Id. at 88. The door then “burst
open,” and police entered the apartment. Ibid. Parks denied that he ever “lunged” at Officer
LaFave, and he conceded that his account differed from LaFave’s, but he insisted his was more
credible “[b]ecause [he] was there.” Ibid.
Parks stated that Jefferson never threatened him with a knife while he was in the apartment,
that he never hit her, and that he never saw any injury on Jefferson’s mouth and did not notice any
bleeding. Id. at 79-81. Parks also admitted that he was drinking and was “high” before he arrived
at Jefferson’s house. Id. at 98-99. Parks stated that he thought Jefferson had become angry and
called the police because she thought he wasn’t going to pay her, or because she was upset that he
fell asleep after they had sex. Id. at 102-03.
Parks also called his sister and a friend as character witnesses, who testified that he was
“quiet,” “truthful,” and “pretty mellow.” Trial Tr. Vol. III at 113 (Oct. 17, 2001) (Pg ID 297);
116-19 (297-98). One of Jefferson’s neighbors testified that he did not hear anything going on in
Jefferson’s apartment until the police arrived. Id. at 60 (Pg ID 283).
III.
In supplemental briefing, the petitioner argues that he can show “actual prejudice” in this
case, because the principal evidence at trial was “he said, she said” testimony produced by the
petitioner and his alleged victim about whether the sex they engaged in was consensual, and the
various physical injuries to the complainant’s person that were observed after the incident plausibly
could have occurred during a consensual encounter, or could have been due to a physical altercation
with someone other than the petitioner. He also relies on Garcia-Dorantes v. Warren, 978 F. Supp.

-8-

APP_042

2:05-cv-10036-DML-CEB Doc # 86 Filed 09/28/17 Pg 9 of 23

Pg ID 1791

2d 815 (E.D. Mich. 2013), aff’d 801 F.3d 584, 600 (2015), in which this Court found prejudice in
another Kent County case that included a fair cross-section claim.
The Court disagrees. The petitioner has failed to establish that he suffered any actual
prejudice, because the trial record plainly depicts a case against the petitioner so strong, and a
defense so weak, that it is highly improbable that an unbiased jury could acquit him. Ambrose, 684
F.3d at 593-94.
The petitioner contends that the trial was merely a “swearing contest.” But he disregards the
fact that he was outnumbered in that contest by five to one. The complainant and all of the firstresponder witnesses gave testimony that consistently and credibly supported the complainant’s claim
that she was beaten and forcibly raped by the petitioner. The petitioner’s self-serving testimony that
the encounter was consensual was contradicted by physical evidence of serious injuries to the
complainant’s person that were consistent with a beating and sexual assault. The petitioner has
offered nothing beyond his own speculation to support his claim that her injuries “could have been”
due to consensual sex or a physical altercation with someone else. His testimony that he “didn’t
notice” lacerations to the complainant’s face and mouth that required stitches to close, and his claim
that she was eager to engage in sex for money with him while suffering thusly, are transparently
implausible, and no reasonable jury could be expected to credit it. The petitioner also offered
nothing to explain the disrepancies between his testimony and that of the responding officer about
what happened when police kicked down the door. The character testimony suggesting that a
violent sexual assault was out of the norm for the respondent’s behavior bears little weight next to
the compelling testimony and physical evidence offered by the state which fully was consistent with
the complainant’s account. And the neighbor’s testimony that he “didn’t hear anything going on”

-9-

APP_043

2:05-cv-10036-DML-CEB Doc # 86 Filed 09/28/17 Pg 10 of 23

Pg ID 1792

before police arrived does not materially impeach the complainant’s story, because the complainant
testified that she submitted to the assault due to her fear of the petitioner, and that she did not call
out for help until police arrived at her door.
This case is significantly distinguishable from those such as Garcia-Dorantes, where the
physical circumstances of a violent encounter largely were undisputed, and where the principal
question for the jury was the defendant’s state of mind, as to which there were no conclusive
physical indications. In this case, by contrast, the record is replete with physical evidence and
independent witness testimony, which directly contradicted the petitioner’s claim that the
complainant consented to the sexual encounter, and which supported in every material detail the
complainant’s story that she was forcibly raped.
The petitioner discusses at length certain testimony by Samuel R. Sommers, Ph.D., which,
he contends, “empirically proves” that juries with more African-American jurors statistically are less
likely to convict in all cases. The petitioner contends that such evidence is sufficient to support the
required finding of “actual prejudice” under the rule announced by the Sixth Circuit in Ambrose.
However, the Sixth Circuit considered that same statistical evidence and held that it is immaterial
to the actual prejudice analysis. Garcia-Dorantes, 801 F.3d at 597 (“The district court [] correctly
found that Dr. Sommers’ expert testimony, in which Dr. Sommers stated that racially diverse juries
are less likely to convict than all-white juries, was not relevant to the ‘actual prejudice’
determination because his testimony: (1) does not support a finding that a different jury would have
reached a different result; (2) lacks any individualized assessment of the case against GarciaDorantes; and (3) relies on impermissible racial stereotypes.”).

-10-

APP_044

2:05-cv-10036-DML-CEB Doc # 86 Filed 09/28/17 Pg 11 of 23

Pg ID 1793

The petitioner also advances the position that he has shown prejudice because minority jurors
may have been more likely to find plausible the petitioner’s testimony that he exchanged money for
consensual sex with a drug addict, who later became displeased with the deal and decided to call the
police, due to their exposure to that sort of transaction as an incident of daily life in urban
environments. However, the Sixth Circuit expressly condemned that avenue of reasoning and
rejected this Court’s reliance on similar experiential inferences about minority jurors in GarciaDorantes. See 801 F.3d at 599 (“[T]his argument sounds much like the stereotyping arguments
courts have sought to avoid, namely that because an individual is black or Hispanic, he is
predisposed to better understand, or be sympathetic to, a defendant’s case.”) (citing Batson v.
Kentucky, 476 U.S. 79, 104-05 (1986) (Marshall, J., concurring)).
Because the petitioner has not shown actual prejudice, he can not overcome his procedural
default. The state’s procedural ground for denying relief, therefore, constitutes an adequate and
independent ground that is beyond this Court’s purview to assess. Coleman, 501 U.S. at 729. The
petitioner is not entitled to habeas relief on his fair cross-section claim.
IV.
The petitioner also argues that the prosecutor’s peremptory challenges were racially
motivated, in violation of the rule in Batson v. Kentucky. He also contends that a further evidentiary
hearing is warranted to ascertain whether any Hispanic jurors were excluded from the venire, where
there is no indication in the record whether or not the venire or the panel included any persons of
Hispanic origin, and he argues that exclusion of Hispanic jurors also could establish that he was
denied the privilege of a jury selected from a fairly composed venire. And he contends that he is

-11-

APP_045

2:05-cv-10036-DML-CEB Doc # 86 Filed 09/28/17 Pg 12 of 23

Pg ID 1794

entitled to an evidentiary hearing to develop a record on the prosecutor’s motives for exercising four
peremptory challenges against African-American jurors.
The respondent points out that the petitioner’s claim that Hispanics were excluded from the
venire previously was rejected by the Court, and the petitioner never attempted during these
extensive proceedings to amend his petition, or to explore in any depth the exclusion of Hispanic
jurors during the evidentiary hearing before the magistrate judge. He also asserts that the voir dire
transcript from the state trial court, despite the fact that the prosecutor’s peremptory challenges were
not subject to any objections, does disclose that there were plausible non-racial reasons for the
exercise of the challenges to the four African-American jurors, based on (1) one juror’s relationship
with a relative who was sexually assaulted, and her responses indicating she would expect the state
to meet an improperly elevated burden of proof in order to convict, (2) another juror’s work with
the state’s probation department, which involved providing services to defendants accused or
convicted of sexual assault, (3) a third juror’s occupation as an engineer (which the respondent
contends was the same occupation as yet another juror who was excused for cause), and (4) the fact
that a fourth juror lived near the crime scene and had heard about the incident before she was called
for jury duty. The respondent contends that the petitioner is not entitled to an evidentiary hearing
on the Batson claim, because, under the rule of Cullen v. Pinholster, 563 U.S. 170 (2011), this
Court’s review of the claim, which was rejected on the merits by the state court of appeals, is
confined to consideration of the record that was before the state courts.
The trial record in this case indicates that the prosecutor used peremptory challenges to
excuse seven jurors: Roger Elliott, Gregory Scrivens, Thomas Zandbergen, Ahmed Shabazz, Kelli
Adane, Aria Moody, and Melanie Gipson (referred to in the transcript by the misnomer “Gibson”).

-12-

APP_046

2:05-cv-10036-DML-CEB Doc # 86 Filed 09/28/17 Pg 13 of 23

Pg ID 1795

Trial Tr. Vol I at 65-66 (Oct. 15, 2001) (Pg ID 217), 82-83 (221), 99 (225), 105 (227). The defense
exercised peremptory challenges to excuse four jurors. Id. at 75 (Pg ID 219), 95 (224), 107 (227).
The transcript does not indicate how many peremptory challenges the parties were allowed, but state
law allowed for twelve challenges for each side. See Mich. Ct. R. 6.412(E). It is evident that neither
side exhausted their full allocation, because both sides passed when asked by the Court the final time
whether they had any peremptory challenges. Id. at 111-12 (Pg ID 228).
During voir dire, the prosecutor asked questions of the jurors about (1) their occupations and
the occupations of their spouses and children, id. at 32-36 (Pg ID 209); (2) if they had been in
situations where they had to decide whether others were telling the truth or lying, id. at 39-42 (Pg
ID 210-11); (3) if they or any of their friends or relatives had been the victims of sexual assault, id.
at 42 (Pg ID 211); (4) if they ever were accused of a crime, id. at 43-49 (Pg ID 211-213); (5) if they
would need proof “100 percent beyond all doubt” to convict, id. at 49-51 (Pg ID 213)); (6) if they
felt that a victim of sexual assault should have to resist, id. at 52 (Pg ID 213); (7) if they would feel
uncomfortable discussing the facts of a case about sexual assault, id. at 53 (Pg ID 214); and (8) if
there was any other reason they could not be impartial, id. at 52 (Pg ID 214).
The parties agree that the voir dire transcript offers no discernible hints about the
prosecutor’s reasons for exercising her peremptory challenges, principally because the defendant’s
attorney did not object to any of the challenges, and at the end of the selection process he stated that
“the defense is satisfied with the jury.” Id. at 112 (Pg ID 228). It also is undisputed that no
reference was made on the record to the race of any members of the venire, or the racial makeup of
the jury.

-13-

APP_047

2:05-cv-10036-DML-CEB Doc # 86 Filed 09/28/17 Pg 14 of 23

Pg ID 1796

In support of his motion in the state court of appeals to remand the case for an evidentiary
hearing on the Batson claim, the petitioner submitted affidavits from Ahmed Shabazz, Aria Moody,
and Melanie Gipson. Each attested that they were in the venire from which the petitioner’s jury was
drawn and that they were peremptorily excused by the prosecutor. Pet. Mot. to Remand, Exs. C-E
(Mich. Ct. App.) (Pg ID 398-404). Melanie Gipson attested that her cousin, Gregory Scrivens, who
is African-American, also was in the venire and was peremptorily excused by the prosecutor.
Gipson aff. pp 4-6 (Pg ID 402). Reverend Steven Vanhuizen separately attested that he observed
the petitioner’s trial and that the “case was tried by an all-white jury.” Ex. F, Steven Vanhuizen aff.
(Pg ID 404). The petitioner conceded in his motion that “the existing record [did] not reflect how
many African-Americans, if any, were in the jury pool or ultimately served on the jury,” and that
the “record [did] not reflect that the prosecutor exercised peremptory challenges for the purpose of
obtaining an all-white jury,” but he argued that remand for an evidentiary hearing was warranted to
develop an evidentiary record, which he believed would show that “there were [] a small number
of African-Americans in [his] jury pool,” and “the prosecutor removed each of those
African-Americans by peremptory challenge and had a racial purpose for doing so.”
As with the fair cross-section claim, the Batson claim was procedurally defaulted, because
there was no objection in the trial court to the prosecutor’s peremptory challenges, and defense
counsel expressed satisfaction with the jury panel. To establish cause for the default, the petitioner
argues that his attorney was ineffective by failing to object.
Ineffective assistance of counsel may serve as “cause” for a procedural default if it rises to
the level of a constitutional violation. Martin v. Mitchell, 280 F.3d 594, 605 (6th Cir. 2002). In fact,
a “claim of ineffective assistance of counsel . . . can serve as both cause and prejudice, excusing a

-14-

APP_048

2:05-cv-10036-DML-CEB Doc # 86 Filed 09/28/17 Pg 15 of 23

Pg ID 1797

procedural default in an underlying substantive claim.” Franklin v. Anderson, 434 F.3d 412, 418 (6th
Cir. 2006). However, to establish constitutionally ineffective assistance of counsel, the petitioner
must meet the two-pronged test set forth in Strickland v. Washington, 466 U.S. 668 (1984). Towns
v. Smith, 395 F.3d 251, 258 (6th Cir. 2005). To show a violation of the Sixth Amendment right to
effective assistance of counsel, a petitioner must establish that his attorney’s performance was
deficient and that the deficient performance prejudiced the defense. Strickland, 466 U.S. at 687.
An attorney’s performance is deficient if “counsel’s representation fell below an objective standard
of reasonableness.” Id. at 688. The defendant must show “that counsel made errors so serious that
counsel was not functioning as the ‘counsel’ guaranteed the defendant by the Sixth Amendment.”
Id. at 687. “Judicial scrutiny of counsel’s performance must be highly deferential.” Id. at 689. The
Supreme Court has “declined to articulate specific guidelines for appropriate attorney conduct and
instead [has] emphasized that ‘[t]he proper measure of attorney performance means simply
reasonableness under prevailing professional norms.’” Wiggins, 539 U.S. 510, 521 (2003) (quoting
Strickland, 466 U.S. at 688 ).
A.
“‘[T]he Equal Protection Clause forbids the prosecutor to challenge potential jurors solely
on account of their race or on the assumption that black jurors as a group will be unable impartially
to consider the State’s case against a black defendant.’” Bryan v. Bobby, 843 F.3d 1099, 1110 (6th
Cir. 2016) (quoting Batson, 476 U.S. at 89). “The trial court’s determination whether the prosecutor
is using his peremptory challenges for that improper reason involves three steps. ‘[O]nce the
opponent of a peremptory challenge has made out a prima facie case of racial discrimination (step
one), the burden of production shifts to the proponent of the strike to come forward with a

-15-

APP_049

2:05-cv-10036-DML-CEB Doc # 86 Filed 09/28/17 Pg 16 of 23

Pg ID 1798

race-neutral explanation (step two).’” Ibid. (quoting Purkett v. Elem, 514 U.S. 765, 767 (1995)).
“Step two does not demand an explanation that is ‘persuasive, or even plausible,’ so long as it is
facially race neutral.” Ibid. (quoting Purkett, 514 U.S. at 767-68). “Although the standard to be met
at this point may be low, the prosecutor is limited to the explanation he gives. No matter that the
trial court or an appellate court may think of better, more plausible, more constitutionally acceptable
reasons for the strike, the only explanation to be analyzed is the explanation the prosecutor in fact
gave.” Ibid. “If step two is satisfied, ‘the trial court must then decide (step three) whether the
opponent of the strike has proved purposeful racial discrimination.’” Ibid. (quoting Purkett, 514
U.S. at 767). “The critical question here is ‘the persuasiveness of the prosecutor’s justification for
his peremptory strike’ — quite simply, whether the trial court finds the prosecutor’s race-neutral
explanations credible or pretextual.” (quoting Miller-El v. Cockrell, 537 U.S. 322, 338-39 (2003)).
“To establish a prima facie case [under step one], the defendant must show that (1) he is a
member of a cognizable racial group; (2) the prosecution has removed a member of his race; and (3)
circumstances raise an inference that the removal was motivated by race.” United States v.
Lawrence, 735 F.3d 385, 443 (6th Cir. 2013)).
The petitioner is not entitled to relief on his Batson and Strickland claims, because he has
not pointed to any circumstances evident from the record sufficient to make out a prima facie claim
that the prosecutor’s use of peremptory strikes was racially motivated. And because the record
discloses no plausible basis for raising a Batson objection, the petitioner’s counsel cannot have been
ineffective for failing to make one.
Before the Court can reach the second or third steps of the Batson analysis (determining
whether proffered reasons are facially neutral, and then evaluating whether those reasons are

-16-

APP_050

2:05-cv-10036-DML-CEB Doc # 86 Filed 09/28/17 Pg 17 of 23

Pg ID 1799

credible), it must find in the first instance that the petitioner has made an adequate prima facie
showing to support an inference of purposeful discrimination. Here, it is undisputed that the
petitioner is African-American, and the record contains affidavits from three members of the venire
whom the prosecutor excused, and who attested that they also are African-American. Therefore, the
petitioner adequately has made out the first two elements of a prima facie Batson claim. However,
he has not pointed to any other circumstances evident from the record sufficient to suggest that the
removal of those jurors was “motivated by race.”
In this case, essentially the only “circumstance” bearing on the issue of racial motivation that
the petitioner points out is that four members of the venire were African-American, and those four
members were excused by the prosecutor’s peremptory challenges. But it is well-accepted that
something more must be shown to establish racial motivation, beyond removal of one or more
members of the venire of a certain race. Hernandez, 500 U.S. at 361 (“While the prosecutor’s
criterion might well result in the disproportionate removal of prospective Latino jurors, that
disproportionate impact does not turn the prosecutor’s actions into a per se violation of the Equal
Protection Clause.”). The Sixth Circuit “has rejected, on multiple occasions, ‘a per se rule that a
showing by the [opponent of the strike] that [a party] used all its peremptory challenges against [a
particular race], without more, makes out a prima facie case of intentional discrimination.’” United
States v. Harper, 545 F. App’x 329, 337 (6th Cir. 2013) (citing United States v. Sangineto-Miranda,
859 F.2d 1501, 1521 (6th Cir. 1988) (“We reject Nelson’s underlying premise that an inference of
intentional discrimination will always arise if, without more, there is a showing that the prosecution
used all its peremptory challenges to exclude blacks.”)).

-17-

APP_051

2:05-cv-10036-DML-CEB Doc # 86 Filed 09/28/17 Pg 18 of 23

Pg ID 1800

The petitioner here has not pointed to any relevant circumstantial factors evident from the
record that could favor an inference of discrimination. “In deciding whether the defendant has made
the requisite showing, the trial court should consider all relevant circumstances.” Batson, 476 U.S.
at 96. “For example, a ‘pattern’ of strikes against black jurors included in the particular venire
might give rise to an inference of discrimination.” Id. at 97. “Similarly, the prosecutor’s questions
and statements during voir dire examination and in exercising his challenges may support or refute
an inference of discriminatory purpose.” Ibid. The Sixth Circuit has held that “it will be relevant
to the third and crucial requirement of a prima facie case to know: 1) the racial composition of the
initial group seated and the final jury panel sworn; 2) the number of peremptory strikes allowed each
side; and 3) the race of those who were struck or excused from the jury panel throughout the voir
dire (whether for cause or by a peremptory challenge), the order of strikes, and by whom they were
exercised. In an appropriate case, it may also be useful to consider evidence as to the percentage
of the ‘cognizable racial group’ in the jury pool, or the racial composition of the district wherein the
jury pool is selected.” Sangineto-Miranda, 859 F.2d at 1520.
There are several reasons why the petitioner’s showing here falls short. First, there is no
information to suggest that the prosecutor engaged in a “pattern” of strikes against AfricanAmerican jurors. The prosecutor excused seven jurors, and only four of those persons purportedly
were African-American. Because the voir dire transcript does not contain any mention of the racial
makeup of the venire or the seated panel, it is impossible to draw any valid inference that all
minority members of the venire were excluded by the prosecutor’s challenges.
Second, there is no racial pretext evident from the prosecutor’s routine questions to the
venire about jurors’ occupations, disposition toward the parties and the nature of the case, and their

-18-

APP_052

2:05-cv-10036-DML-CEB Doc # 86 Filed 09/28/17 Pg 19 of 23

Pg ID 1801

understanding of the burden of proof. Nor is there any racial pretext suggested by any comments
made on the record by counsel, the trial court, or members of the venire. The affidavits supplied by
the petitioner do not suggest any pretext either, because those members of the venire offered nothing
more than their racial identities and the fact that they were excused.
Third, as noted above, it is impossible to divine the racial makeup of the venire as a whole,
beyond the proffered facts that four members of the venire were African-American, and that all of
the jurors seated on the panel were white. But those facts are insufficient in themselves to raise a
valid inference of discriminatory intent. Sangineto-Miranda, 859 F.2d at 1521.
Fourth, neither side exhausted its challenges to the end of excluding all members of a certain
race.
Fifth, it is well established by now that the percentage of African-American jurors in the
relevant jurisdiction was around 8.9%, which the Court previously observed was the same as the
ratio of 4 in 45 members of the venire whom the record suggests were of that race. But, again,
absent other suggestive circumstances, the bare fact that the seated panel had a lower percentage of
minority jurors than the jurisdiction as a whole is not sufficient to support any valid inference of
purposeful discrimination.
Nevertheless, “[i]f a prosecutor’s proffered reason for striking a black panelist applies just
as well to an otherwise-similar nonblack who is permitted to serve, that is evidence tending to prove
purposeful discrimination to be considered at Batson’s third step.” Miller-El v. Dretke, 545 U.S.
231, 240-41(2005). “It is well established that a Batson violation may be shown by disparate
treatment of white and minority jurors — that is, if a side-by-side comparison of some black
potential jurors who were struck and white ones who were not shows that the only material

-19-

APP_053

2:05-cv-10036-DML-CEB Doc # 86 Filed 09/28/17 Pg 20 of 23

Pg ID 1802

distinction between the removed black and the retained white individuals is their race.” United
States v. Atkins, 843 F.3d 625, 631 (6th Cir. 2016) (quotations omitted). In this case, the information
available from the record of the voir dire convincingly suggests that no such suspect comparisons
could be made, since, as the respondent points out, the answers of the four identified venire members
on the record reveal valid non-racial reasons to distinguish them from any white jurors who were
not discharged, such as occupation, misapprehension of the burden of proof, hesitation in answering
inquiries about bias, and the fact that one person resided near the scene of the crime. The petitioner
correctly points out that those reasons may not be presumed by the Court to be the actual
motivations of the prosecutor, since no reasons for the peremptory challenges ever were offered by
her on the record. But as “relevant circumstances” bearing on the adequacy of a prima facie
showing, those comments by members of the venire convincingly rebut any inference that the only
cognizable distinction between minority members of the venire who were excused and non-minority
members who were not challenged was racial.
In its decision affirming the petitioner’s conviction and rejecting his Batson and fair-crosssection challenges, the state court of appeals reasoned as follows:
Defendant [] argues that his trial counsel was ineffective when he failed to object to
the prosecutor’s racially discriminatory use of her peremptory challenges. Because
defendant failed to move for a new trial or an evidentiary hearing regarding his
ineffective assistance claim, this Court’s review is limited to mistakes apparent on
the record. We find no merit to defendant’s argument.
To establish a claim of ineffective assistance of counsel, a defendant must show that
counsel’s performance fell below an objective standard of reasonableness and that,
but for counsel’s errors, there was a reasonable probability that the result of the
proceeding would have been different.
No ineffective assistance is evident from the existing record. This Court previously
denied defendant’s motion for remand, and no evidentiary record exists regarding
defendant’s ineffective assistance challenge. Further, the transcript of the jury voir
-20-

APP_054

2:05-cv-10036-DML-CEB Doc # 86 Filed 09/28/17 Pg 21 of 23

Pg ID 1803

dire does not provide any information regarding the allegedly faulty computer
program and does not indicate the races of the jury venire or the impaneled jury. Nor
does the record indicate that the prosecutor exercised her peremptory challenges to
remove African-Americans from the jury because of their race. Effective assistance
of counsel is presumed, and the defendant bears a heavy burden of proving
otherwise. Because there is no record of any wrongdoing, defendant has not
sustained his burden of establishing that his trial counsel provided objectively
unreasonable assistance, let alone unreasonable assistance that affected the jury’s
verdict. Therefore, we find no merit to defendant’s argument.
People v. Parks, No. 239728, 2003 WL 21958299, at *1 (Mich. Ct. App. Aug. 14, 2003). That
ruling essentially was a determination that the petitioner had not made out a prima facie claim under
Batson’s step one, and that no further inquiry into the prosecutor’s motivation was required. For the
reasons discussed above, that was not an unreasonable application of well-established federal law.
“[A] defendant satisfies the requirements of Batson’s first step by producing evidence sufficient to
permit the trial judge to draw an inference that discrimination has occurred.” Johnson v. California,
545 U.S. 162, 170 (2005) (emphasis added). Here, he has not done so.
The petitioner’s extensive argument in support of his position that he is entitled to an
evidentiary hearing to explore the circumstances of the jury selection in his case is supported by
nothing more than his speculation that such an inquiry could produce some evidence of racial
motivation sufficient to allow him to raise a valid Batson claim. But that sort of naked speculation
does not warrant an evidentiary hearing in a habeas proceeding. Shirley v. Yates, 807 F.3d 1090,
1105 (9th Cir. 2015) (“‘No authority supports the State’s claim that pure speculation qualifies as
circumstantial evidence of the prosecutor’s actual reasons [for exercising a peremptory strike].’”
(quoting Paulino v. Harrison, 542 F.3d 692, 701 (9th Cir. 2008))); Woods v. Sinclair, 764 F.3d
1109, 1128 (9th Cir. 2014) (“It was not unreasonable for the Washington Supreme Court to deny
Woods’s request for a hearing when all he could offer was speculation that an evidentiary hearing

-21-

APP_055

2:05-cv-10036-DML-CEB Doc # 86 Filed 09/28/17 Pg 22 of 23

Pg ID 1804

might produce testimony or other evidence inconsistent with Dr. Brown and MacClaren’s
declarations.”); c.f. Lancaster v. Adams, 324 F.3d 423, 435 (6th Cir. 2003) (finding state court’s
refusal to remand for an evidentiary hearing on the prosecutor’s reasons for exercising challenges
due to the absence of a prima facie showing was unreasonable because the prosecutor had offered
reasons for the challenges in response to objections, thus mooting the Batson step one inquiry).
As the Court observed in its previous opinion, “[t]he affidavits of the excused jurors simply
say that they were excused. To conclude that the prosecutor exercised peremptory challenges on
the base of race requires pure speculation. The petitioner has not provided the Court with any facts
to support his allegation that the prosecutor acted improperly or that defense counsel’s omissions
amounted to deficient performance.” Order Denying in Part Pet. [dkt. #30] at 8. Nothing in the voir
dire transcript suggests any good reason to question that conclusion.
B.
As to the petitioner’s Strickland claim, which is premised on the failure to raise a Batson
challenge, petitioner’s counsel cannot be found to be ineffective for failing to raise an objection that
was not supported in the first instance by any prima facie showing adequate to raise a valid
inference of purposeful discrimination. Mitchell v. Rees, 36 F. App’x 752, 753-54 (6th Cir. 2002)
(“The district court’s conclusion that the state court record demonstrates ineffective assistance of
counsel with regard to the Batson issue necessarily depends on the record’s demonstrating the
existence of a meritorious Batson claim.”).
V.
The petitioner has not shown prejudice to excuse his procedural default of his fair crosssection claim. He has shown neither cause nor prejudice on his Batson claim.

-22-

APP_056

2:05-cv-10036-DML-CEB Doc # 86 Filed 09/28/17 Pg 23 of 23

Pg ID 1805

Accordingly, it is ORDERED that the petition for writ of habeas corpus is DENIED.

s/David M. Lawson
DAVID M. LAWSON
United States District Judge
Dated: September 28, 2017

PROOF OF SERVICE
The undersigned certifies that a copy of the foregoing order was served
upon each attorney or party of record herein by electronic means or first
class U.S. mail on September 28, 2017.
s/Susan Pinkowski
SUSAN PINKOWSKI

-23-

APP_057

A-5

2:05-cv-10036-DML-CEB Doc # 88 Filed 09/28/17 Pg 1 of 3

Pg ID 1807

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
CURTIS PARKS,
Petitioner,
v.

Case Number 05-10036
Honorable David M. Lawson
Magistrate Judge Charles E. Binder

MILLICENT WARREN,
Respondent.
________________________________________/
ORDER GRANTING CERTIFICATE OF APPEALABILITY
Petitioner Curtis Parks filed a petition under 28 U.S.C. § 2254 on February 2, 20015. On
July 31, 2008, the Court denied all of the petitioner’s claims but one, and referred the matter to the
assigned magistrate judge for an evidentiary hearing on his fair cross-section claim. On February
28, 2011, the Court denied relief on the fair cross-section (Duren) claim as well. The petitioner
appealed, and the court of appeals remanded the case for reconsideration of the petitioner’s fair
cross-section and Batson claims. On September 28, 2017, after reviewing the full record of the
proceedings in the state trial court and the supplemental evidentiary record developed in this matter,
the Court found that the petitioner had failed to establish prejudice sufficient to excuse the
procedural default of his Duren claim, and had failed to show either cause or prejudice to excuse the
default of his Batson claim.
Pursuant to Rule 11 of the Rules Governing Section 2254 Cases in the United States District
Courts:
The district court must issue or deny a certificate of appealability when it enters a
final order adverse to the applicant. . . . If the court issues a certificate, the court must
state the specific issue or issues that satisfy the showing required by 28 U.S.C. §
2253(c)(2). If the court denies a certificate, a party may not appeal the denial but
may seek a certificate from the court of appeals under Federal Rule of Appellate

APP_058

2:05-cv-10036-DML-CEB Doc # 88 Filed 09/28/17 Pg 2 of 3

Pg ID 1808

Procedure 22.
Rule 11 of the Rules Governing Section 2254 Cases.
A certificate of appealability may issue “only if the applicant has made a substantial showing
of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). Courts must either issue a certificate
of appealability indicating which issues satisfy the required showing or provide reasons why such
a certificate should not issue. 28 U.S.C. § 2253(c)(3); Fed. R. App. P. 22(b); In re Certificates of
Appealability, 106 F.3d 1306, 1307 (6th Cir. 1997). To receive a certificate of appealability, “a
petitioner must show that reasonable jurists could debate whether (or, for that matter, agree that) the
petition should have been resolved in a different manner or that the issues presented were adequate
to deserve encouragement to proceed further.” Miller-El v. Cockrell, 537 U.S. 322, 336 (2003)
(internal quotes and citations omitted).
The Court finds that reasonable jurists could debate whether relief should be granted on each
of the petitioner’s remaining live claims, and the Court therefore will grant a certificate of
appealability as to both of the Duren and Batson claims.
Accordingly, it is ORDERED that a certificate of appealability is GRANTED as to the
petitioner’s fair cross-section (Duren) claim and Batson claims.
s/David M. Lawson
DAVID M. LAWSON
United States District Judge
Dated: September 28, 2017

-2-

APP_059

2:05-cv-10036-DML-CEB Doc # 88 Filed 09/28/17 Pg 3 of 3

Pg ID 1809

PROOF OF SERVICE
The undersigned certifies that a copy of the foregoing order was served
upon each attorney or party of record herein by electronic means or first
class U.S. mail on September 28, 2017.
s/Susan Pinkowski
SUSAN PINKOWSKI

-3-

APP_060

A-6

2:05-cv-10036-DML-CEB Doc # 87 Filed 09/28/17 Pg 1 of 1

Pg ID 1806

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
CURTIS PARKS,
Petitioner,

Case Number 05-10036
Honorable David M. Lawson
Magistrate Judge Charles E. Binder

v.
MILLICENT WARREN,
Respondent.
________________________________________/

JUDGMENT
In accordance with the opinion and order denying the petition for a writ of habeas corpus
entered on this date, it is ORDERED AND ADJUDGED that the petition is DISMISSED WITH
PREJUDICE.
s/David M. Lawson
DAVID M. LAWSON
United States District Judge
Dated: September 28, 2017
PROOF OF SERVICE
The undersigned certifies that a copy of the foregoing order was served
upon each attorney or party of record herein by electronic means or first
class U.S. mail on September 28, 2017.
s/Susan Pinkowski
SUSAN PINKOWSKI

APP_061

A-7

Case 2:05-cv-10036-DML-CEB
Case: 11-2531 Document:
ECF No.
006111966548
77 filed 02/18/14
Filed: 02/18/2014
PageID.1216 Page:
Page11 of 3 (1 of 3)

NOT RECOMMENDED FOR FULL-TEXT PUBLICATION
File Name: 14a0136n.06

FILED

Case No. 11-2531
UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

CURTIS PARKS,
Petitioner-Appellant,
v.
PAUL KLEE,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)
)
)

Feb 18, 2014
DEBORAH S. HUNT, Clerk

ON APPEAL FROM THE UNITED
STATES DISTRICT COURT FOR
THE EASTERN DISTRICT OF
MICHIGAN

BEFORE: MOORE, GIBBONS and SUTTON, Circuit Judges.

PER CURIAM. For sixteen months in 2001 and 2002, a software glitch affected the
Kent County, Michigan jury selection system. In Ambrose v. Booker, 684 F.3d 638 (6th Cir.
2012), this court addressed three habeas petitioners’ claims that the computer glitch led to a
violation of their Sixth Amendment right to a jury drawn from a fair cross section of the
community. We held that the normal requirement of cause and prejudice to excuse a procedural
default on habeas review applied to these claims. Id. at 649. After finding that the petitioners
could demonstrate cause, we remanded to allow the district court to develop a record as to
whether the petitioners suffered prejudice from the alleged fair cross-section violations. Id. at
652.

APP_062

Case 2:05-cv-10036-DML-CEB
Case: 11-2531 Document:
ECF No.
006111966548
77 filed 02/18/14
Filed: 02/18/2014
PageID.1217 Page:
Page22 of 3 (2 of 3)
Case No. 11-2531
Parks v. Klee
Curtis Parks raised the same procedurally defaulted fair cross section claim as the
Ambrose petitioners in his habeas petition based on the same computer glitch. The district court
found cause to excuse the default, presumed prejudice and denied his petition on the merits. He
appealed, and at his request we held his appeal in abeyance awaiting the decision in Ambrose.
As in that case, because the district court presumed prejudice and “did not address actual
prejudice, a remand is necessary.” Id.
Parks’ appeal also challenges the district court’s denial of relief on his ineffective
assistance of counsel claim related to his counsel’s failure to raise a Batson challenge at trial. In
light of the remand on the fair cross section claim, we need not go into detail about the appellate
arguments on this issue. We will note that, in the course of resolving this complicated case, the
district court appears to have overlooked the existence in the record of the voir dire transcript
from Parks’ state court trial. In view of this reality, we will vacate this portion of the district
court’s decision as well, and the court is free on remand to consider any arguments Parks may
wish to raise.
The district court’s orders on Parks’ fair cross section and ineffective assistance claims
are vacated, and the case is remanded for further proceedings consistent with this opinion.

2
APP_063

A-8

Case 2:05-cv-10036-DML-CEB ECF No. 17-2 filed 08/25/05

PageID.480

Page 1 of 50

APP_068

A-9

Case 2:05-cv-10036-DML-CEB ECF No. 16-2 filed 08/25/05

PageID.327

Page 1 of 50

APP_064

Case 2:05-cv-10036-DML-CEB ECF No. 16-2 filed 08/25/05

PageID.328

Page 2 of 50

APP_065

Case 2:05-cv-10036-DML-CEB ECF No. 16-2 filed 08/25/05

PageID.329

Page 3 of 50

APP_066

Case 2:05-cv-10036-DML-CEB ECF No. 16-2 filed 08/25/05

PageID.330

Page 4 of 50

APP_067

